<html>
<title> - DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND INDEPENDENT AGENCIES APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                DEPARTMENTS  OF  VETERANS  AFFAIRS  AND

                 HOUSING  AND  URBAN  DEVELOPMENT,  AND

                  INDEPENDENT AGENCIES APPROPRIATIONS

                                FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                                ________
            SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES
                   JAMES T. WALSH, New York, Chairman
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 DAVID L. HOBSON, Ohio               MARCY KAPTUR, Ohio
 JOE KNOLLENBERG, Michigan           CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ANNE M. NORTHUP, Kentucky           ROBERT E. ``BUD'' CRAMER, Jr., 
 JOHN E. SUNUNU, New Hampshire       Alabama
 VIRGIL H. GOODE, Jr., Virginia      CHAKA FATTAH, Pennsylvania     
 ROBERT B. ADERHOLT, Alabama        
                                    
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
          Frank M. Cushing, Timothy L. Peterson, Dena L. Baron,
         Jennifer Miller, and Jennifer Whitson, Staff Assistants
                                ________
                                 PART 4
                                                                   Page
 Federal Emergency Management Agency..............................    1
 Corporation for National and Community Service...................  543

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 79-317                     WASHINGTON : 2002





                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey     
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
DEPARTMENTS OF VETERANS AFFAIRS AND HOUSING AND URBAN DEVELOPMENT, AND 
              INDEPENDENT AGENCIES APPROPRIATIONS FOR 2003

                              ----------                              

                                          Wednesday, March 6, 2002.

                  FEDERAL EMERGENCY MANAGEMENT AGENCY

                                WITNESS

JOE M. ALLBAUGH, DIRECTOR
    Mr. Walsh. The subcommittee will come to order.
    This morning, we welcome Mr. Joe Allbaugh, Director of 
FEMA, to our hearing on the Fiscal Year 2003 budget request.
    Over the past year, there have been significant changes in 
the roles FEMA has been asked to play as the Nation responds to 
a series of new threats or disasters. The traditional role of 
FEMA, responding to national disasters, remains of utmost 
importance. Added to this role is that of helping the Nation 
prepare for terrorism and terrorism events and responding to 
those events when necessary.
    FEMA's response to the events of last September were 
nothing less than exemplary. The immediate needs of the persons 
most directly hit by the disaster were met. The task of 
cleaning up was begun, and is well on its way to completion, 
and a long journey of recovery has begun. The response from the 
people at FEMA and the other agencies it has established 
relations with has been, as it always is in times of disaster, 
professional, helpful, fair, and we thank you for your efforts 
in those regards and our thanks to your team, to all the people 
of FEMA.
    Mr. Allbaugh. Thank you.
    Mr. Walsh. The budget request for Fiscal Year 2003 is more 
than $6.7 billion, an increase of almost $3.7 billion. I 
certainly can't remember in my 13 years here, or the memory of 
what occurred before, a Federal agency ever doubling in one 
budget year. FEMA has requested that. It points out how 
exceptional these times are.
    The majority of the proposed increase is for a new program 
of grants for equipment, training, and planning for the First 
Responders to enable them to deal with widespread acts of 
terrorism as well as national disasters, and we hope to give 
you a full opportunity to explain the way it is being rolled 
out by the Administration.
    Also included in this budget request is $300 million for an 
initiative to update flood maps, an effort that this committee 
has tried to support in the past, but we have been unable to 
convince the Senate of the need for accurate flood maps. We 
hope, with your help, to convey to everyone the wisdom of 
funding this program to avoid the enormous costs associated 
with properties being located in flood plains.
    I intend to ask a number of questions regarding the New 
York City recovery effort. So I will start with the specific, 
and then I will move to the more general.
    Many of my colleagues in New York State, as you might 
imagine, have expressed their deep interest in FEMA's important 
and truly critical role in the reconstruction and 
rehabilitation of the public infrastructure of this great city. 
I look forward to your responses in those regards.
    Mr. Allbaugh, we look forward to working with you as we 
move toward completion of our bill this year. Before we hear 
your opening statement and move to our questions, I would like 
to recognize my colleague, Alan Mollohan, for any comments that 
he may have at this time.
    Mr. Mollohan. Thank you, Mr. Chairman. Welcome, Mr. 
Allbaugh.
    Mr. Allbaugh. Thank you.
    Mr. Mollohan. Director, first let me congratulate you on 
the outstanding work that FEMA has done under very trying 
circumstances, and I along with the chairman and the rest of 
the committee, I am sure, look forward to your testimony here 
this morning.
    When you sat here at this table last year, none of us knew 
the incredible challenges our nation would face in the coming 
months. September the 11th gave a heightened importance to 
FEMA's primary objective, reducing loss of life and property 
and protecting our nation's critical infrastructure from 
hazards through a comprehensive risk-based emergency management 
program of mitigation, preparedness, response, and recovery. It 
has also added a new dimension to the agent's mission, that of 
the lead agency in the Homeland Security initiative to ensure 
that states and localities are adequately prepared to deal with 
the full range of terrorist threats.
    I have read your budget submission with interest, and I am 
pleased to see that it contains $3.5 billion for the First 
Responder initiative; however, I think we need to know more 
about what exactly this initiative will consist of and how the 
grant portion of it will be administered and combined with 
other grant programs such as the ones taken from the Department 
of Justice and the Fire Grants program.
    I am also interested in hearing how FEMA will interact with 
the Office of Homeland Security and, of course, the details of 
how you are to fulfill your new missions.
    I look forward to the opportunity to work with you on these 
issues as the year moves forward.
    Thank you, Mr. Chairman.
    Mr. Walsh. Thank you, Alan.
    I would also like to recognize Congressman Knollenberg and 
Congressman Frelinghuysen, two very hard working members of the 
subcommittee, and ask if they have any opening comments.
    Mr. Knollenberg. Chairman, thank you, but I do not. I am 
willing to look forward to the testimony. Thank you.
    Mr. Walsh. Mr. Frelinghuysen?
    Mr. Frelinghuysen. I will save my comments just before 
asking a few questions, if I may, Mr. Chairman.
    Mr. Walsh. Okay.
    Mr. Allbaugh.

                           Opening Statement

    Mr. Allbaugh. Thank you, Mr. Chairman and Members. I have 
submitted a written statement for the record, but what I would 
like to do, instead of reading that, is just take a few minutes 
and ramble a little bit about this last year.
    I marked my one year anniversary on the 16th of February, 
last month, and it has been an incredible year, as both have 
alluded to, something I hope we never ever have to go through 
as a country again, and in wishing, hoping, praying we never go 
through this again, part of that responsibility is being 
prepared, and we are a great agency to lead in that 
preparation, training exercises, equipment purchases, which we 
will talk further this morning.
    None of this past year would have been possible without the 
truly amazing individuals we have, full-time employees, part-
time employees, reservists at FEMA who have the desire in their 
heart to do the right thing for their fellow citizens. And we 
have seen it time and time again across this country, not only 
in New York, which has received a lot of attention, but at the 
Pentagon and Pennsylvania as well as a result of the attacks on 
September 11th.
    Last year, in 38 states, we responded to 45 major disasters 
nationwide. We had 11 emergency disasters nationwide. It has 
been truly a remarkable year. We now have the opportunity to, I 
think, in my opinion, become the agency we should be for the 
country, leading the way in training and exercises, setting 
national standards which we so desperately need across the 
Nation for our First Responders.
    I look forward to working with you. I appreciate your 
continued and strong support of our agency. Without your 
support, we would not have been able to do what we need to do. 
I know there is a lot of focus on First Responders, training, 
equipment purchases, but that will not take away from our 
mission in the area of mitigation and flood protection as well.
    We have the capabilities to perform all these tasks given 
the necessary resources, and I do appreciate the strong support 
you have given not only to me personally, but to the agency as 
a whole over the last year. It has been an incredible year, and 
hopefully things will slow down a little bit. I am not sure 
that they will, but we are in New York for a long time to come.
    If you will remember back to the Northridge earthquake that 
happened in the early nineties, we still have an office working 
on projects in California as a result of that earthquake. We 
have over 500 people still in New York City, with our disaster 
field office still open at 141 Worth Street, centered downtown. 
We will be open for an extended period of time.
    I yesterday just extended the registration period for four 
individuals in New York through the 30th of September. The 
reason I did that, Members, is we are still seeing anywhere 
from four to six hundred new registrants a day, and a lot of 
people are using their savings. They are using their retirement 
to kind of bide their time and get them by as they recover, 
very reluctant to take advantage of the services this great 
country offers to our fellow citizens in time of need. So they 
are at the end of using those funds, and they are now reaching 
out for assistance, and we will continue to see a lot of 
individuals for several months to come.
    So that was the principal reason why I extended that 
deadline. I think it is the right thing to do. And this is an 
amazing country, and there isn't anything we can't whip once we 
put our collective minds together that we can't get through, 
and you have seen that in the recovery of New York City and the 
Pentagon and Pennsylvania over the last six months.
    It is amazing that it has only been six months. It is 
amazing to me I have been in this position a year. It seems 
like ten years at some times.
    But let me conclude by saying again I appreciate your 
strong support. I look forward to answering your questions to 
the best of my ability. I have numerous members of our senior 
staff here to assist me, and front and center is Mike Brown who 
is General Counsel and Acting Deputy Director, and then Matt 
Jadacki, who is the Deputy CFO for the agency, and the Acting 
Chief is here as well, as well as other Assistant Directors for 
the agency.
    Thank you for the opportunity to appear here this morning.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walsh. Thank you for your testimony, and we will now 
proceed to questions. If you would like to have any of your 
staff join you at the table, please have them come up if that 
would make things easier for you.
    Mr. Allbaugh. I think it will. I will have Mike and Matt 
come and join me, and then as needed, there might be others.
    Mr. Walsh. That will be fine.
    Mr. Allbaugh. They can answer technical questions that are 
a little beyond my pay grade.
    Mr. Walsh. We would just ask them when they do respond to 
identify who they are and what their position is with FEMA, for 
the record.
    Mr. Allbaugh. Sure.

      FEDERAL RESPONSE PLAN AND FEMA'S ROLE IN TERRORISM RESPONSE

    Mr. Walsh. Let me begin. As I mentioned, I would like to 
begin with specific questions and then work towards the general 
in the next round. In the aftermath of the terrorist attack on 
the World Trade Center, your agency has played a critical role 
providing financial assistance for all the individuals and 
businesses who suffered losses in the September 11th attack. 
Given the unprecedented nature and scope of this attack, which 
is quite different from FEMA's traditional role of responding 
to national disasters, what are the major challenges that your 
agency has dealt with and is currently facing?
    Mr. Allbaugh. Mr. Chairman, I would start by saying that we 
operate under the umbrella of the Federal Response Plan. We are 
charged with that principal responsibility of coordinating 26, 
27 Federal agencies, their assets and resources. And on a 
positive note, I would begin by saying that the Federal 
response plan worked on September 11th across the board. There 
are some issues that deal with deployment of our USAR teams, 
Urban Search and Rescue teams, that I would like to improve 
upon.
    I would like to improve upon communications. I personally 
witnessed on many occasions the first couple of weeks that our 
ability to communicate with Ground Zero from the Javitz Center 
was hindered for a variety of reasons, and I witnessed 
individuals relegated to passing notes to one another from 
Ground Zero to the Javitz Center, riding bicycles. We have a 
communications interoperability problem nationwide I would like 
to solve, to help solve.
    Mr. Walsh. The Javitz Center is up at Columbus Circle?
    Mr. Allbaugh. You know, I really don't know. I can't say.
    Mr. Walsh. Okay. Yes. It is quite a ways.
    Mr. Allbaugh. I spend a lot of time in New York. I should 
know it better by now.
    Mr. Walsh. You are almost a New Yorker if you are not.
    Mr. Allbaugh. I don't think I will ever make it though.
    Our early deployment of the urban search and rescue teams 
were not to my satisfaction, as I alluded to. We need to work 
on a better logistics plan. One of things that I have asked and 
is routine after a major incident, after deploying urban search 
and rescue teams, is that I ask the incidence support team 
commanders to prepare an after-action report. They will be 
completing that the 1st of April. I would like to share that 
with the members, lessons we learned.
    We at one time had somewhere between four and six thousand 
individuals representing a variety of Federal agencies across 
the board in New York City, assisting New Yorkers as they 
responded. We were very fortunate, if you can say it was 
fortunate, that this attack happened in New York City. Any 
other infrastructure and any other community in America would 
have been totally overwhelmed. But being a city of eight and a 
half million people, a Police Department of 43,000, a Fire 
Department of 16,000, we were able to augment what they were 
already providing to the World Trade Center.
    I am not sure that we know all the lessons learned yet, and 
this will take a while to sift through. We are within about 
50,000 tons of having the entire area completely cleaned up. We 
are below ground now. As you know, there are six floors below 
ground. We have done all this with very few injuries and no 
loss of life, which I am extremely thankful for. It is 
essentially a construction site now, and they still work 24 
hours a day, 12-hour shifts, seven days a week and have since 
September 11th.
    We have been blessed with extremely good weather, which has 
added to our ability to move quickly with the debris removal. 
We have gone out of our way to ensure that the American 
taxpayer has gotten the best bang for their dollar in New York 
City by implementing some measures to assist and facilitate the 
tracking of debris removal.
    I am very proud of our folks, and as I said in my opening 
statement, we have still over 500 folks there on the ground. We 
are now shifting gears, as we wind down the debris removal to 
assisting responsibility, to assisting in the public assistance 
arena. Many entities are wanting to begin to rebuild, get their 
lives and businesses back on their feet, as well as helping 
those individual family members who have been harmed in the 
process. We have had over 63,000 individuals or families 
register with our agency, as well as the local agencies that 
are assisting, and it is a monumental effort that will continue 
for years to come, Mr. Chairman.

                    NON-PROFITS AND THE STAFFORD ACT

    Mr. Walsh. There have been a number of reports from 
agencies within New York City, not-for-profits primarily, that 
have caused some concern among members of the New York 
delegation. Just to make the point, there is a picture here of 
the disaster site from a view from the New York University 
building at 100 Trinity. Their facility was used as a morgue 
during the disaster, immediately after the disaster occurred. 
And the reponse that a number of these organizations have 
received from FEMA is that the Stafford Act doesn't apply to 
their losses and to expenses incurred.
    Given the extraordinary nature of the September 11th 
attack, it would appear to me that there are a unique set of 
circumstances here that perhaps the authors of the Stafford 
Act--and I know Secretary Ridge was one of the authors, if not 
the author of that act--that they didn't anticipate. So if you 
could comment specifically on the problems that these not-for-
profits are experiencing and how we might help to address some 
of the losses that they have incurred.
    Mr. Allbaugh. I think there is a general problem with non-
profits as a rule nowadays. With the amendments to the Stafford 
Act, I believe in 2000, non-profits when they are inflicted 
harm as a result of a manmade or a natural disaster are 
relegated to a process of applying to SBA first for assistance. 
I think this is an area that I would like to improve, and I am 
not sure that we should ask the non-profits to go any 
extraordinary route that we ask any other government entity to 
go through.
    The question of insurance is always an issue, sifting 
through the insurance requirements, whether they are covered, 
they are not covered, which policies, is always an issue for 
all entities that are covered under the Stafford Act. I am open 
to options and would like to entertain and start a dialogue 
with our staff and committee staff on how we improve the 
Stafford Act in this particular area. I know it is a problem.
    Mr. Walsh. There has been some discussion about 
legislation, amendments, changes to the Stafford Act. Is that 
something you would be willing to discuss with us?
    Mr. Allbaugh. I am open to that. We ran into this problem 
on my watch with the earthquake outside of Seattle, Washington. 
We had Tropical Storm Allison during the summer where it 
impacted five states. Numerous non-profits in the Houston area 
which was the community that was hit the hardest, seemed to be 
caught in the same switch, so to speak, and I would like to see 
if we could solve this problem. There needs to be some equity 
in the system.
    Mr. Walsh. Do you have any idea how many entities have been 
denied assistance because of either the Stafford Act or your 
interpretation of FEMA's own regulations?
    Mr. Allbaugh. I don't know that, but I would be happy to 
provide that back in writing to the committee as soon as we 
could collect that.
    I am not sure. Is there anybody who would know?
    No. Larry is not here.
    Mr. Walsh. If you would submit that in writing, we would 
very much appreciate it.
    Mr. Allbaugh. I would be happy to do that. My gut reaction 
is that there are numerous non-profits who have been impacted.
    [The information follows:]

                  Disaster Assistance for Non-Profits

    To date, six non-critical, private non-profit entities, as 
defined by the Disaster Mitigation Act of 2000, have applied 
for assistance in New York. None have been denied. FEMA does 
not deny assistance based on the Disaster Mitigation Act 
designation of critical versus non-critical. Rather, the Act 
established a process by which non-critical entities can apply 
for FEMA reimbursement for Permanent Work. That process 
requires that non-critical private non-profits must apply for 
funding from the Small Business Administration before they can 
be considered for FEMA assistance. If SBA declines funding or 
the funding does not cover all eligible damages, the applicant 
may apply to FEMA for the remainder of the cost to repair 
eligible damaged facilities. The applicant has the option of 
declining to apply to SBA, in which case they are not eligible 
to pursue Permanent Work reimbursement through FEMA Public 
Assistance. So far, four of the six eligible non-critical non-
profits in New York have declined to apply for SBA loans, and 
two have not yet decided whether to seek an SBA loan.

            NY TRANSIT AUTHORITY AND PATH SYSTEM REBUILDING

    Mr. Walsh. Regarding public infrastructure, specifically 
the New York Transit Authority and PATH, the subway system is 
pretty old, and PATH is much newer, but both were destroyed in 
the vicinity of the Trade Center, and it is an opportunity to 
improve both of those facilities. Just generally, what is your 
view of restoring to prior condition or making improvements at 
this point? It seems to me there is a real opportunity to make 
some improvements here. You don't want to rebuild an older 
structure, as it was. It would seem to me that we would want to 
upgrade it at this time.
    Mr. Allbaugh. I think we need to take advantage of this 
opportunity to put in the state-of-the-art equipment, whether 
it be trains or computer systems, whatever is necessary. We are 
toying with the idea of allowing DOT to take this 
responsibility, both with the Port Authority and the City of 
New York, to work through these problems since they have the 
technical expertise to offer, and, in essence, we would take 
whatever money and give it to DOT and let them take the lead 
with those two local agencies.
    We haven't resolved that issue yet, but I think we are 
about to. But I agree with what you are saying.

                   EXPENDITURE OF SUPPLEMENTAL FUNDS

    Mr. Walsh. As you know, we appropriated substantial funds 
for FEMA in the supplemental that we passed immediately after 
the attack.
    Mr. Allbaugh. Yes, sir.
    Mr. Walsh. My records show that approximately one and a 
quarter billion dollars of FEMA funds have been expended in the 
disaster area. Is that accurate?
    Mr. Allbaugh. I will defer to Matt to answer that question 
on the dollars expended.
    Mr. Walsh. Identify yourself.
    Mr. Jadacki. Matt Jadacki, Acting Chief Financial Officer. 
As of yesterday, it was just about $1 billion.
    Mr. Walsh. And how much is in the pipeline from the 
supplemental?
    Mr. Jadacki. The first supplemental last year was $2 
billion. We have an additional $4.3 billion. So about $6.3, 
$6.4 billion.
    Mr. Walsh. $6.3 billion and you have expended about one?
    Mr. Jadacki. Correct, sir.
    Mr. Walsh. And you anticipate spending that balance, and in 
what period of time?
    Mr. Jadacki. We anticipate spending the entire $6.4 billion 
by the end of Fiscal Year 2003.
    Mr. Walsh. So in approximately two years, you will have 
expended that amount?
    Mr. Jadacki. Yes.
    Mr. Walsh. Do you anticipate additional requests in this 
year's supplemental for FEMA, which we anticipate will come out 
at the end of March.
    Mr. Allbaugh. Mr. Chairman, I have heard that there was 
discussion about a supplemental. I haven't been told that, in 
fact, there actually will be a supplemental; however, I will 
tell you that a variety of agencies have been asked for some 
early preliminary numbers, and we have been one of those 
agencies who was responsive.
    Mr. Walsh. So you have submitted numbers to OMB?
    Mr. Allbaugh. We have.
    Mr. Walsh. Could you share those numbers with us, what you 
anticipate your needs would be in that supplemental?
    Mr. Allbaugh. I believe we submitted some early requests 
for right at a billion dollars, which would be expended 
immediately for the balance of this fiscal year.
    Mr. Walsh. It is not New York-specific; that is across the 
country?
    Mr. Allbaugh. That is across the board, and I don't exactly 
remember the breakdown, but a sizable portion of that, 50, 60 
percent of that, involves grants to state and local communities 
as an extension of our First Responder program in conjunction 
with homeland security, trying to upgrade our capabilities 
nationwide as quickly as we possibly can, as opposed to waiting 
until the 2003 budget, another eight months or so, nine months.

                        FIRST RESPONDERS PROGRAM

    Mr. Walsh. The three and a half or $3.7 billion increase 
for fiscal year 2003, much of that is for First Responders, 
that obviously is across the country. Are there any specific 
expenditures required for New York that are any different for 
the rest of the country in that program?
    Mr. Allbaugh. I don't believe we have submitted anything. I 
think for the foreseeable future, based upon what you were 
gracious to give us last year with the last supplemental, we 
have enough money to answer the needs with regard to New York 
City, and we really don't have any needs or requests. That was 
taken care of very early.

                 PUBLIC UTILITIES AND THE STAFFORD ACT

    Mr. Walsh. One other issue: We talked about non-profits and 
New York University specifically, and there are others, 
hospitals for instance, that had tremendous expenses encumbered 
that I would like to discuss vis-a-vis the Stafford Act. Public 
utilities, Verizon and others, it is estimated their losses in 
this were in the neighborhood of $1.9 billion. Since those 
agencies are incorporated within New York State, if they don't 
get some relief, that cost, I would anticipate, would be spread 
across their rate base, New York City and Long Island and 
beyond New York State.
    I am not sure how they are chartered, but their costs, I 
believe would be spread across New York also. Those would be 
substantial increases to those customers. So they would, in 
effect, get whacked again. What is your interpretation of the 
Stafford Act vis-a-vis publicly-owned utilities in a situation 
as extraordinary as this?
    Mr. Allbaugh. Our interpretation has been and is currently 
that the act prohibits participation by for-profit entities 
with FEMA and any grants that we may given, issue for repair of 
damage.
    Mr. Walsh. Have you had discussions? Has FEMA had 
discussions with the public utilities?
    Mr. Allbaugh. Yes, we have.
    Mr. Walsh. You have?
    Mr. Allbaugh. Yes, sir, early on.
    Mr. Walsh. And is that ongoing or is that cut off?
    Mr. Allbaugh. I think our conversations, the last 
conversation I had with representatives of either institution, 
took place maybe right after the first of the year, the last 
conversation I had, as well as with the Mayor's office and the 
Governor's office who were interested in the same issue.

                       FEMA RESPONSE IN NEW YORK

    Mr. Walsh. Lastly, let me just ask your impressions of the 
meetings that you have had with the Mayor and the Governor and 
what their level of satisfaction is with the response that they 
have experienced thus far?
    Mr. Allbaugh. Well, I think they are dissatisfied. I mean, 
they would like to have the Federal Government step up to the 
plate and make these for-profit entities whole on their losses, 
and, you know, I would love to do that too. I am not sure where 
you draw the line. You do one; we are exposing ourselves 
nationwide, and FEMA has had a history of holding fast on the 
interpretation of for-profits vis-a-vis the Stafford Act.
    Mr. Walsh. Thank you.
    Mr. Allbaugh. Thank you.
    Mr. Walsh. Mr. Mollohan.

                    OFFICE OF NATIONAL PREPAREDNESS

    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Director, at last year's hearing, we spent some time 
discussing the fact that FEMA requested to take the lead on 
domestic terrorism, and the Vice President was going to lead an 
effort to develop a plan for responding to terrorist attacks in 
the United States. I understand that the White House announced 
the proposal about May 8th, 2001. Where are we on getting the 
details of the plan, do we have a plan? Are you going to 
announce it?
    Mr. Allbaugh. With regard to FEMA, I followed the 
President's instruction in setting up the Office of National 
Preparedness within FEMA. We recently just appointed Bruce 
Baughman as the director of ONP. I thought originally we were 
on the right track, up until September 11th, and other things 
took a higher priority, and we really didn't have time nor the 
interest or inclination, quite frankly, Congressman, to push 
this forward until we got our arms fully around New York City 
and the Pentagon. And about the middle to the end of December, 
once again, we brought it to the front, and we have been 
working closely with Homeland Security since the President 
selected Governor Ridge to head that effort.
    Mr. Mollohan. Something that happened in the middle to end 
of December brought it to the front?
    Mr. Allbaugh. Well, I brought the discussion about ONP back 
on my personal front burner.
    Mr. Mollohan. But nothing happened in December to do that?
    Mr. Allbaugh. No. No. I just thought that we had resolved 
enough issues as the fallout after September 11 to once again 
make it a priority for me and started working closely with 
Governor Ridge and the staff at Homeland Security to help 
develop a nationwide plan, detailed a couple of individuals to 
the Governor's office to assist in that plan, and that was the 
genesis for establishing the First Responder program, which is 
reflected in the budget, as well as a couple of other ongoing 
programs.
    We have a plan for First Responders working with the states 
that will be headed up in Bruce's office, and that reflects the 
expenditure of the $3.5 billion request.
    Mr. Mollohan. Right. You are getting a little bit ahead of 
me.
    Mr. Allbaugh. Sorry.

                 NATIONAL DOMESTIC PREPAREDNESS OFFICE

    Mr. Mollohan. The National Domestic Preparedness Office, 
the Administration's request is to have it transferred over to 
FEMA.
    Mr. Allbaugh. That is the request of the Administration, 
yes, sir.
    Mr. Mollohan. Is that central to your plan?
    Mr. Allbaugh. Actually----
    Mr. Mollohan. Or just implementing?
    Mr. Allbaugh. It is not central to our plan; however, what 
they do is part of our core mission.
    Mr. Mollohan. Well, if it doesn't get transferred, what is 
it going to do to your core mission or your plan?
    Mr. Allbaugh. It won't impact it, other than we will 
continue to have a duplication of efforts offered to the 
Nation's First Responder. Cities, counties, local communities 
will have to pick where they want to get their training. We 
happen to believe that we are the best qualified to provide 
that training, as we have been since the inception of FEMA.
    Mr. Mollohan. The idea of coming forward with a plan and 
making it public in that formal way, is that still a part of 
the agenda?
    Mr. Allbaugh. We will come forward with a plan, explain to 
the communities how we plan to expend the money, and I want to 
finish crafting this plan and make it known prior to actually 
receiving the dollars if Congress agrees with what we are 
trying to do.
    Mr. Mollohan. Now, which plan are you referring to there?
    Mr. Allbaugh. The First Responders plan.
    Mr. Mollohan. The First Responders?
    Mr. Allbaugh. Yes, sir.
    Mr. Mollohan. All right. Well, the plan I think we were 
talking about last year was the plan of how we are going to 
deal with domestic terrorism.
    Mr. Allbaugh. Yes, sir. That has taken on a different and 
added emphasis over at Homeland Security. That is their 
principal function.
    Mr. Mollohan. All right. So where are we with the domestic 
terrorism plan?
    Mr. Allbaugh. Well, Government Ridge and his staff are 
working on that.
    Mr. Mollohan. All right. So he is the person who is going 
to be coming forward with that? The Vice President was going to 
do, I think.
    Mr. Allbaugh. Right.
    Mr. Mollohan. And will that be done in a formal way?
    Mr. Allbaugh. I can't answer that question.
    Mr. Mollohan. And you don't know what the time frame is?
    Mr. Allbaugh. I do not.
    Mr. Mollohan. Getting the National Domestic Preparedness 
Office into FEMA is pretty key to defining you, is it not?
    Mr. Allbaugh. I don't think so. We provide those functions 
right now, as we have for many years, and what we need to do is 
continue to train, set standards nationwide, and measure those 
standards and hold people accountable.
    Mr. Mollohan. So if it doesn't come over, what jurisdiction 
it has will simply be coordinated with the jurisdiction FEMA 
currently has--I don't want to provide the answer for you.
    Mr. Allbaugh. It will continue to exist, I assume, we will 
have two entities that will essentially be doing the same 
thing.
    Mr. Mollohan. You used that word ``duplicate.''
    Mr. Allbaugh. I think there are some services that are 
duplicated.
    Mr. Mollohan. And you are working that issue, I know.
    Mr. Allbaugh. We are. We think that is one of our core 
missions, will continue to be our core mission.
    Mr. Mollohan. What is the principal challenge here? Is it a 
Capitol Hill opposition challenge?
    Mr. Allbaugh. I am fearful that it is a turf battle. I will 
just be honest with you. That is what I think.
    Mr. Mollohan. Among the agencies?
    Mr. Allbaugh. I think less so. I think it is more of 
community jurisdiction.
    Mr. Mollohan. If it helps you any, I have pointedly asked 
the Attorney General in a hearing in my other subcommittee last 
week about the transfer, and he was very affirmative in his 
support.
    Mr. Allbaugh. Yes, sir. I know he is, and we have had 
several conversations along this line. The history, which 
predates me, is that for a long time there was a desire by 
members of Congress to place this responsibility with an 
agency, and it bounced around a bit, and we had the opportunity 
to take this responsibility several years ago, and we decided 
not to do it for whatever reason. It is the cornerstone, in my 
opinion, for all that we do.
    Mr. Mollohan. It kind of returns you to your roots, doesn't 
it?
    Mr. Allbaugh. In a roundabout way, but not so much so in 
the civil defense arena. We believe in preparedness. We believe 
in educating as many people as we possibly can across the 
board. All individuals who are in a position of responding to 
an incident, whether it be a manmade disaster or natural 
disaster, we are an all-hazards agency. We have the expertise 
to train individuals. There is no way we can run 289 million 
people through Emmitsburg. So we have to be in a position of 
training folks who will then go out and train others.
    Mr. Mollohan. So we have a formal request now to transfer?
    Mr. Allbaugh. I believer that is part of the budget 
submission. I am not sure. I know we have been asked for 
authorizing language.
    Mr. Mollohan. Do you have to have an authorization to 
transfer?
    Mr. Allbaugh. I don't believe so. I am told by others that 
we do.
    Mr. Mollohan. You really need to push that on the 
authorizing side if you have to do that.
    Mr. Allbaugh. I understand that. There is some language 
that is floating around right now between OMB and Homeland 
Security and our shop. We are trying to come to resolution on 
that, and then we will offer it to the appropriate committees.
    Mr. Mollohan. This committee is being asked to do an awful 
lot of authorizing--if you are going to ask us to do that.
    Of the funds appropriated in last fall's emergency 
supplemental, how much has been obligated?
    Mr. Allbaugh. Matthew?
    I can't answer that question.
    Mr. Jadacki. I think about $4.6 billion.
    Combined. About a billion dollars has been obligated so 
far.
    Mr. Mollohan. Which category?
    Mr. Allbaugh. As far as public assistance.
    Mr. Mollohan. What has it been obligated for?
    Mr. Jadacki. For the New York disaster.
    Mr. Mollohan. When do you anticipate the rest of the funds 
being obligated?
    Mr. Allbaugh. We anticipate obligating most of the funds, 
if not all of the funds, by the end of 2003.
    Mr. Mollohan. By the end of Fiscal 2003?
    Mr. Allbaugh. That's right.
    Mr. Knollenberg. Mr. Chairman, could we have identification 
of the gentleman? We think we know him, but we want to make 
sure.
    Mr. Jadacki. I'm sorry. Matt Jadacki, the Acting Chief 
Financial Officer.
    Mr. Mollohan. Can you provide specific information for the 
record in response to that question?
    Mr. Allbaugh. Sure we can.
    [The information follows:]

           Expenditure of Fiscal Year 2002 Supplemental Funds

    Last Fall's Emergency Supplemental provided $4.357 billion 
for the Disaster Relief Fund for disasters and emergencies 
resulting from the terrorist attacks. This was in addition to 
$2 billion provided to FEMA from the first $20 billion 
appropriated to the Emergency Response Fund in September 2001. 
As of March 20, FEMA has obligated $1.061 billion for disaster 
response. FEMA estimates obligating the remainder of the $6.4 
billion received for disaster relief by the end of 2003.
    The Emergency Supplemental also provided $210 million for 
firefighter assistance grants. These funds are available 
through September 30, 2003. FEMA expects to obligate the bulk 
of fire grant monies by the end of this calendar year.
    Out of the $10 million in supplemental funds provided to 
support additional urban search and rescue teams at the 2002 
Winter Olympics, $6.2 million was obligated as of March 20. All 
obligations against this appropriation should be completed in 
the near future.
    A total of $25 million in no year funds was appropriated 
for salaries and expenses. As of March 20, $195,000 was 
obligated. These funds will be obligated over several years, 
mainly to support additional staff. While personnel actions to 
hire additional staff for the Office of National Preparedness 
and the National Security Division have been initiated, it will 
take several months to actually hire all ONP staff.
    As of March 20, 2002, total FEMA projected costs for New 
York City recovery are estimated at $9.6 billion. A total of 
$996 million has been obligated so far.

             FISCAL YEAR 2002 SUPPLEMENTAL FUNDING REQUEST

    Mr. Mollohan. Thank you. We expect to receive a 
supplemental here this spring. Is FEMA going to be a part of 
this supplemental?
    Mr. Allbaugh. As I have said earlier, we have been asked to 
provide some numbers to OMB. I know there is discussion about a 
possible supplemental that I haven't been told one way or 
another.

                   OBLIGATION OF SUPPLEMENTAL FUNDING

    Mr. Mollohan. And not being really close to New York, and 
the Chairman is the expert on that, that just seems like a slow 
obligation to me given the costs that you have indicated are 
involved up there.
    Mr. Allbaugh. I think our obligations are more than a 
billion dollars, but I don't keep track of the numbers 
personally. We will get an answer for you on exactly what our 
obligations and expenditures have been. I know in morning 
report, we put out specific numbers.
    Mr. Walsh. If I could interject, this is a FEMA document 
dated March 4th. It says Federal assistance has reached over 
$1.23 billion to date.
    Mr. Mollohan. Homeland security, Mr. Director, how much of 
the total funding is FEMA planning to use for national domestic 
preparedness?
    Mr. Allbaugh. Of the 2003 budget, $3.5 billion, which is 
the First Responder request. There is an additional amount of 
money. I originally asked for $15 million to enhance our urban 
search and rescue teams. OMB cut that back to $6 million-plus. 
Search and rescue teams are extremely important to me, not only 
personally, but they provide a very key role in responding to 
disasters. There may be a couple of other areas that are 
involved in homeland security. I can respond in writing to you.
    [The information follows:]
                       Homeland Security Funding
    In FY 2003, as reflected in the President's budget request, FEMA 
plans to use a total of $3,557,302,000 to support homeland security 
initiatives:
Salaries and Expenses
    $24,907,000 will be used to fund salaries and benefits, travel and 
other expenses required for on-board staff ($4,907,000) and the 
additional 100 FTE ($20,000,000) requested in FY 2003.
Grants
    $3,500,000,000 to provide grants to states and localities for 
priority terrorism preparedness activities in the areas of planning, 
equipment, training and exercises.
Emergency Management Planning and Assistance
    $30,000,000 to work with states and localities on terrorism 
preparedness to identify areas of greatest need and build a national 
capability.
    $1,255,000 to continue activities involving FEMA's continuity of 
operations (COOP) and fund operations and maintenance costs associated 
with National Security programs.
    $1,140,000 to complete emergency relocation facility upgrades.

      OFFICE OF HOMELAND SECURITY/OFFICE OF NATIONAL PREPAREDNESS

    Mr. Mollohan. How many staff and how much money will be 
used to support the Office of Homeland Security?
    Mr. Allbaugh. The Office of National Preparedness, which 
will be working in concert with Homeland Security, we have a 
budget currently of $15 million, I believe. That was a part of 
the supplemental last year, $15 million and a staff of 82 
individuals.
    Mr. Mollohan. That is Governor Ridge's office?
    Mr. Allbaugh. No, sir. This is Office of National 
Preparedness.
    Mr. Mollohan. I am actually talking about Governor Ridge's 
office.
    Mr. Allbaugh. I have no idea.
    Mr. Mollohan. You don't know how much of this request will 
go towards Governor Ridge's office?
    Mr. Allbaugh. None of our request will go to supporting his 
office.

                        FIRST RESPONDER PROGRAM

    Mr. Mollohan. FEMA has requested $3.5 for the First 
Responder Program?
    Mr. Allbaugh. Yes, sir.
    Mr. Mollohan. Your statement is that these funds will be 
grants focusing on planning, equipment, training, and 
exercises. Will all the $3.5 billion being requested be used 
for grants?
    Mr. Allbaugh. That is our intention, yes, sir, and those 
four categories you just annunciated are the principal broad 
categories we would like to spend the money in. We have dollar 
amounts that are target amounts, $105 million for planning, $2 
billion for equipment purchases, $245 million for exercises, 
and $1.1 billion in training.
    Mr. Mollohan. That was my next question. Thank you.
    Mr. Allbaugh. Those are target dollar amounts, but once we 
develop the program and see what the actual requests that come 
in from the states and local communities, we may change. But 
those are the initial categories we would like to spend the 
money in.
    I wouldn't mind one bit if we spent the entire $2 billion 
on equipment purchases on the communications interoperability 
problem that I alluded to earlier that we have nationwide. We 
are in the business of saving lives and protecting property.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Walsh. The gentleman's time has explained. Mr. Delay, 
the Majority Whip, is here. As a member of the leadership, I 
would defer to his busy schedule and allow him to ask his 
questions.
    Mr. DeLay. Thank you, Mr. Chairman. I thank the rest of the 
committee and appreciate your indulgence.
    Good to see you, Mr. Allbaugh.
    Mr. Allbaugh. Thank you, sir. It is good to be seen.
    Mr. DeLay. Well, you are hard to miss.
    Mr. Allbaugh. I have been told that.
    Mr. DeLay. First of all, I would like to just take a brief 
moment to thank you and all of FEMA for your assistance last 
year. It was an incredibly remarkable year for FEMA, to say the 
least.
    Your testimony says that last year FEMA responded to 50 
major disasters, including the terrorist attacks. That is 
pretty remarkable, and I know that your personnel, your staff 
and you yourself, were fully tested and stretched to the 
limits, and I for one, this member, wants to thank all of you, 
especially those here in D.C. that were so willing to help us 
and those in the field that really did a remarkable job with 
great professionalism and courtesy. It was a pretty tremendous 
year for you.
    Mr. Allbaugh. Thank you.

                         TROPICAL STORM ALLISON

    Mr. DeLay. You are the kind of people that you hope you 
don't have to work with this year, but we know that if disaster 
happens, you are very competent to take care of it.
    I wonder if you could just comment now or even for the 
record how the recovery and reimbursement efforts are going on 
in Houston, how much funding has actually been allocated to 
help the victims of the flood and what needs are still 
remaining and what the time table for the recovery efforts may 
be.
    Mr. Allbaugh. Tropical Storm Allison will end up being one 
of the most expensive storms that this country has faced over 
the last several years. I think we are well over a billion 
dollars.
    Mr. Jadacki. We are just over a billion dollars and we 
anticipate the total costs for Allison at about $1.8, $1.9 
billion.
    Mr. Allbaugh. That is in the Houston area, and we are 
resolving, I think, most of the issues. We have moved into the 
public assistance arena, helping those entities, medical 
centers to get back on their feet. I know I alluded earlier in 
the conversation with the chairman here, for the record, that 
the non-profit issue is one that needs to be addressed. I am 
not exactly satisfied with our response to non-profits and 
would like to work with the members of this committee, as well 
as members of both houses, to take another look at the 
amendments to the Stafford Act that were passed in 2000 that 
really put the non-profits in a box in my opinion.
    Mr. DeLay. When you say get the medical center back on its 
feet, as you know, the medical center is a rather unique 
corporate structure.
    Mr. Allbaugh. Yes, sir.
    Mr. DeLay. And it is an umbrella organization that 
encompasses 42 hospitals and other medical facilities that were 
devastated by Tropical Storm Allison. The medical center takes 
care of the infrastructure for the hospitals, like parking lots 
and its facilities. So while it is not a hospital itself, it 
works hand in hand with the hospital and is part of the 
infrastructure.
    Now, I am told that the medical center was denied 
eligibility for assistance, but I believe that is because of 
the uniqueness of the organization, and maybe it should receive 
that assistance and warrants another look at it. I understand 
that the staff in Houston, FEMA staff, has expressed an 
interest in maybe funding the medical center. Could you comment 
on that?
    Mr. Allbaugh. I think it goes to the broader issue of the 
non-profits nationwide, whether it be New York University or 
the medical center in Houston. They are essentially in same 
boat, and we need to resolve this, and I would like to explore 
this further. I do not know what the immediate answer is.
    I know folks at the medical center who--well, some of the 
hospitals came in and wanted us to increase our contribution on 
the mitigation side, and we are prohibited. We are capped in 
the Stafford Act at 75 percent. So I can't offer any more 
assistance there, and we are spending a load of money in the 
mitigation arena, not only in the Houston community, but 
especially in New York City as a result of both of those.
    But I am open. I don't have the answer. I am not sure we 
have the answer, and maybe collectively we can solve the non-
profit problem. It is a problem nationwide. I admit that. I 
would love to solve it.

                        FIRST RESPONDER PROGRAM

    Mr. DeLay. Maybe we can work on that. I don't want to get 
into Citizen Corps here. Maybe with can have a visit another 
time on Citizen Corps.
    But my last question is I know you have--maybe I missed it 
by being late, but give me an idea why the First Responder 
program should be moved from Justice to FEMA.
    Mr. Allbaugh. Well, actually we provide an ongoing First 
Responder program as a part of our core training and core 
mission, setting the standards, training those individuals who 
respond to disasters. They are the ones who receive the 911 
phone call. It has been a cornerstone of FEMA since its 
inception.
    I believe very strongly that we should not give confusing 
or mixed signals to the recipients of that training. It ought 
to be--whether it is a FEMA or Justice or DOD or somewhere, all 
the training for First Responder needs to be in one location, 
and I think it would be advantageous for the committee to hear 
from the recipients of that training, you know, what they 
think. You don't have to take my word for it. I know that we 
have the expertise, the talent. We have the excellent 
relationships that are ongoing with the state and local 
entities that we deal with day in and day out, and I believe 
very strongly we ought to be the lead agency for the Federal 
Government when it comes to training First Responders.
    Mr. DeLay. Thank you, Mr. Director.
    Thank you, Mr. Chairman. I appreciate your courtesy.
    Mr. Walsh. Thank you.
    Mr. Frelinghuysen.

 MUTUAL AID AGREEMENTS BETWEEN NEW YORK AND NEW JERSEY FOR EMS SERVICES

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    FEMA enjoyed, Mr. Allbaugh, a great reputation prior to 
September 11th, dealing with a lot of what I call natural 
disasters, a few unnatural disasters, Oklahoma, the attack on 
the World Trade Center in 1993, and let me say on behalf of a 
very grateful New Jersey, I want to thank you and all the good 
people behind you for the work that you have done and continue 
to do as we sit here----
    Mr. Allbaugh. Thank you.
    Mr. Frelinghuysen [continuing]. In the New York and New 
Jersey metropolitan area. I take this very personally and 
emotionally. We lost about 800 people in New Jersey, whether it 
is five minutes from my home or 25 minutes, of which about 80 
people were from my area, who worked in lower Manhattan. The 
public perception is that everybody who works in lower 
Manhattan comes from New York, but in reality, a good portion 
of them come from New Jersey.
    We did learn something after the 1993 attack, because my 
state entered into a mutual aid agreement with New York City 
for EMS services, and so sometimes people ask, did we learn 
anything from these tragedies. And it is an interesting 
footnote, but it is somewhat germane to what I am driving at, 
that about 90 percent of First Responders on September 11th 
actually came across the Hudson River to New York. I saw them. 
I talked to them, and I spent a lot of time meeting with the 
First Responders, and they deserve a hell of a lot of 
congratulations. They are ready for the next disaster, and that 
is certainly where you come into play and where your role is so 
important.
    Many of them have a concern, and I just speak in general 
terms, there is a public perception out there that by the time 
the Federal Government gets the money to states, the states 
will take it, and nothing will get down to the people who 
really are on the front lines. I can't express it any other 
way, but I think we need to make sure that the people that are 
doing a good job get some recognition and some support.
    You have mentioned in your initial remarks the need for 
better communications. God only knows we need that. You call it 
interoperability, but to me it is inability of people to 
communicate in a very basic way, either voice or computer.
    When I meet with people, everybody is doing training, and 
we would like to think in our state, the State Police, in 
general, set the standard, but everybody is doing training. 
Every hospital is mobilized. Emergency rooms are mobilized. I 
get a feeling we need a model for people to follow when they 
expend their energies and local and state resources, and they 
match those with Federal resources, that we can really get 
something done, and I think we need to do things pretty darn 
quickly.
    Also, if we have a disaster, will hospitals be able to talk 
to one another so people coming into the emergency get a quick 
diagnosis, instantaneous diagnosis, and will that have a 
connection to FEMA, CDC? Will it be smallpox, or will it be 
something perhaps more horrendous, some sort of small nuclear 
device?

                           NATIONAL STANDARDS

    I assume you are working on these types of issues. I would 
like to know what sort of a game plan you have. I know I have 
covered the map here, but I do wonder where we are going. Is 
somebody driving this train so there is some uniformity, 
standards, a model so we don't have duplication and waste?
    Mr. Allbaugh. I appreciate your question and thank you for 
it. We are devising those standards, those requirements, the 
resource-typing nationwide. We want to put those in place. I 
know one of the problems that I witnessed personally in New 
York is that, as you alluded to, many people from surrounding 
states came across both rivers and offered their assistance. 
They would show up with pumper trucks, and we couldn't connect 
the pumper trucks to the hose.
    We need to have standardization nationwide on equipment, on 
procedures, on training. It is great to buy the toys. It is 
great to train on them, but if you don't exercise, you never 
know where the glitches are, and we want to provide the 
standards that we measure each one of these communities against 
so we help enhance our infrastructure nationwide when it comes 
to responding to an incident.
    Insofar as the program, we want to ensure, and this is 
going be a requirement, that no more than 25 percent of the 
money, of the 3.5 billion, will reside with any of the states. 
The only way that we can make a difference nationwide is to get 
75, 80 percent of that money down to the local community where 
the needs are, where they respond to these incidents.
    It will be an aggressive program that will have to work in 
concert with our state partners. FEMA does not have the 
capability to--let me rephrase that. A lot of communities want 
to bypass the states, as you alluded to. They are fearful they 
would not get their fair share of money, which is one of the 
reasons why we insist on the 75-25 split.
    The flip side of the coin is that we do not have the 
capability to deal individually with 100,000 communities 
nationwide. So we need to use our existing relationships and 
structure in place that we have with the state. At the same 
time, we will be improving the state capabilities. They will be 
required to adhere to a set of standards and measured against 
that.
    I don't believe that this is a one-time expenditure of 
money. This is a multi-year problem with many billions of 
dollars that will have to be spent, and you all are faced with 
many tough decisions every day, and I think the American public 
is going to insist that we have standards nationwide. They are 
going to demand that we fund it properly, and I think it is a 
wise decision that we do so. And we want to be at the forefront 
because of our previous experience, because of our technical 
expertise, because of our relationship. We ought to be the one 
leading the charge. That is it.

                     URBAN SEARCH AND RESCUE TEAMS

    Mr. Frelinghuysen. All power to you. I think we need to 
expedite the process for developing a model. There are so many 
people who want to put their shoulder to the plow here, and 
they are willing to put up the resources to move forward.
    And let me just make a plug here for the Urban Search & 
Rescue teams. I am not sure what the magic is for 28. I know 
that there are several out in California that are all within 
120 miles of one another. But it is interesting that we have, 
in my state, a team that is as good as any USAR team that was 
actually in there on September 11th supplying the existing USAR 
teams. And, I know you have made some public comments about not 
wanting more teams. In reality, our state's US&R Team is 
actually equipped at our own state's expense. It was so damn 
good, people were basically stripping it down during the 
immediate crisis to supplement existing problems.
    I hope that you will consider, and Congress if that is 
necessary, that we need more of these urban search and rescue 
teams, because we have willing people. I hope we do not put 
ourselves in a boxhere to just have 28 teams.
    Could you react to that?
    Mr. Allbaugh. Let me respond, Congressman, by saying there 
is nothing magical about 28. That is where we are right now, 
and I would prefer, as opposed to adding another five, ten, 
twenty that are very capable across the nation that could be a 
part of our infrastructure right now, that we get the 28 that 
we have up to a level of training, equipment standardization, 
that we think they ought to be.
    We only have eight of the 28 that are WMD trained. We need 
to have all 28 trained, and once we achieve that level of 
training and satisfaction according to what we think they ought 
to be, where we think they ought to be, I would entertain the 
addition of others.
    I know many communities, many states do fund search and 
rescue teams because they know it is a high priority.
    Mr. Frelinghuysen. And many of them have trained to your 
standards, anticipating that if they do that, that they would 
be recognized.
    Mr. Allbaugh. Absolutely. So I want to politely stiff arm 
the addition of anymore teams to the 28 until we can take care 
of the 28 first. I don't want to bite off more than I can chew.
    Now, there may be a situation where one or two teams can't 
make it; they just don't measure up. I think that is ample 
opportunity for other teams that are in the wings to roll in to 
be a part of the 28 national task force.
    Mr. Frelinghuysen. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Walsh. Thank you.
    Mr. Price.
    Mr. Price. Thank you, Mr. Chairman, Mr. Allbaugh.
    Let me also add my thanks for the heroic efforts you and 
your colleagues have made since the September disaster and also 
your continuing attention to my disaster-prone state of North 
Carolina.
    Many people think these disasters come and go in a much 
shorter period of time than they do, but the clean up and 
recovery efforts in fact take years, and you have understood 
that and worked with us.
    Mr. Allbaugh. Thank you.

       PRE-DISASTER MITIGATION PROGRAM/HAZARD MITIGATION PROGRAM

    Mr. Price. I would like to speak with you about two 
matters. One has to do with the establishment of the pre-
disaster mitigation program and the elimination of the hazard 
mitigation grant program, the tradeoff there; and then, 
secondly, to the extent we have time, flood map modernization.
    The hazard mitigation grant program is a key component of 
the mitigation and disaster recovery. In North Carolina, for 
example, the hazard mitigation grant program and supplemental 
appropriations following Hurricanes Fran and Floyd are 
resulting in the relocation of over 4,400 families out of the 
flood plains.
    Now, I understand the rationale, and I think you have my 
support here for a pre-disaster program, and of course a 
successful pre-disaster program would greatly reduce post-
disaster costs, but it isn't clear to me that it would 
completely remove the need for post-disaster mitigation 
efforts. In fact, I think our experience is that post-disaster 
mitigation funding provides us a unique window of opportunity 
to do mitigation, to encourage individuals living in a hazard-
prone area to take action that reduces their risk. That, 
unfortunately, is something that we can sometimes only get 
attention for and participation in after a disaster.
    Moreover, in the post-disaster environment, the required 25 
percent non-Federal cost share associated with hazard 
mitigation programs is more easily obtained by state and local 
governments. In the current economy, I think the state and 
local governments would be hard pressed to find that match 
associated with pre-disaster mitigation.
    So this leads to my question. While there is undoubtedly 
strong support for a broad risk reduction program that allows 
states and localities to mitigate before a disaster occurs, 
shouldn't it be part of a broader strategy that includes the 
continued use of the hazard mitigation grant program funds for 
post-disaster mitigation as stated in the Disaster Mitigation 
Act of 2000?
    Mr. Allbaugh. Thank you for your question, Congressman. I 
believe very strongly we have to have a pre-disaster mitigation 
program. That is why we asked for the $300 million. There are a 
variety of communities that have identified right now their 
areas of risk. They want to be able to move quickly to 
eliminate those risks before a disaster hits. That is the 
purpose of the $300 million. We would like to go ahead and give 
all communities across the country that opportunity to mediate 
or mitigate their risk before a disaster hits.
    I do agree with you that we cannot throw the baby out with 
the bath water. We need to have some post-disaster money that 
we currently offer. I think it is up to 15 percent and then it 
goes up to 20 percent, but a lot of folks aren't really 
motivated until a disaster hits, unfortunately.
    So we cannot do one without the other, in my opinion. I 
want to do both. I would like to have a dialogue with you or 
your staff about what the right balance should be. I am not 
sure what it should be, maybe a continuation of what we offer 
currently.
    The purpose of the program is to put more emphasis on 
mitigating those risks prior to any potential event.
    Mr. Price. And I think you will find widespread agreement 
on that basic proposition, and I am encouraged to see you 
moving in that direction, and as I said, the hope would be that 
this would reduce our cost post-disaster, both mitigation costs 
and recovery costs.
    But I am encouraged by your openness to what you call a 
balanced approach where we continue to take advantage of the 
opportunity that a disaster sometimes offers to get mitigation 
work done. I don't believe your budget fully reflects that. So 
I hope you can work on it.
    Mr. Allbaugh. How do I diplomatically respond to that? OMB 
does some strange things occasionally with our budget, and I 
don't know how to answer that. They had submitted a budget with 
the submission of the $300 million and called it quits. So I am 
interested in doing both.
    Mr. Price. We get the picture. We will work with you on 
that, and we appreciate your openness to that.
    Mr. Allbaugh. Thank you.
    Mr. Price. We put in $25 million for a pre-disaster 
mitigation effort to develop local partnerships to foster 
disaster-resistant communities, as we call them. My impression 
of that effort is that as far as it has gone, it has been a 
very good one. I hear positive things about the program. It 
gets people involved in thinking about prevention and 
mitigation.
    How will this new pre-disaster program, much larger of 
course in scale, build on that smaller program?
    Mr. Allbaugh. If you don't mind, Congressman, I would like 
to have Bob Shea respond to your question. He is the individual 
who is responsible for all of our mitigation arena.
    Mr. Price. While you are responding, let me just add one 
other question. This pre-disaster funding is going to be 
awarded on a competitive basis, as I understand, and I think we 
are going to need to think about whether that will disadvantage 
smaller communities, communities that have limited grant-
writing experience and expertise.
    Mr. Shea. Thank you, Congressmen. My name is Bob Shea. I am 
the Acting Administrator the Federal Insurance and Mitigation 
program, and of the budget request for Fiscal Year 2003, $25 
million is actually set aside to continue the smaller pre-
disaster mitigation grant program.
    Mr. Price. How much?
    Mr. Shea. $25 million. Coupled with that, importantly, what 
we are trying to do is carry on the work that was captured in 
the Disaster Mitigation Act of 2000. That act authorized us to 
move forward in the mitigation area, but importantly, it also 
focused an emphasis on training and planning and technical 
assistance for communities just like you talked about.
    We will work through the state, but in a very proactive 
way. It is our intention to try to aggressively provide 
technical assistance to smaller communities. There is a special 
section of the act that deals with small disadvantaged 
communities and actually provides a larger resource base for 
that.
    Mr. Price. I understand. What about the problem of 
disadvantaged communities that might lack the capacity to apply 
effectively to this pre-disaster program?
    Mr. Shea. Over the last decade or so, Congressman, we have 
been working on--I think the bill passed at the state level, 
and in particular, in North Carolina, you have one of the 
finest hazard mitigation organizations in the country. And it 
is our belief that using that resource base and additional 
technical assistance, that we will be able to support those 
local communities.
    There are times when some of them form collaborations with 
the county government or other cities, and in that case, you 
can do an economy of scale and provide support.
    Mr. Price. I mainly am just looking for assurance that you 
are aware of the problem and are going to continue working on 
it. All communities, obviously, do not have equal resources or 
equal capacity, and yet many of those communities are 
vulnerable and need to be engaged in these mitigation efforts.
    Mr. Shea. There is no question about that.

                        FLOOD MAP MODERNIZATION

    Mr. Price. Let me turn to flood map modernization. I know 
that is something we talked about last year. You did deliver on 
the promise you made to us last year in terms of what you were 
going to do in this area. Again, I am speaking for North 
Carolina, our North Carolina experience. Hurricane Floyd 
brought into focus our vulnerability in relying on these 
outdated and inaccurate flood plain maps. Our state has 
invested over $30 million and tremendous staff resources in its 
flood map modernization program to produce new and more 
accurate flood maps.
    I wonder if you could elaborate on the partnership you have 
established with North Carolina in this area. I happen to think 
it is exemplary and might offer some lessons for other states 
as we undertake national re-mapping efforts. During last year's 
hearing, you promised to improve on the relatively small 2002 
request for flood mapping, and that is where I am saying you 
really delivered. The proposed $300 million effort in this 
budget should result in better flood risk information for local 
governments charged with flood plain management and all hazard 
mitigation planning.
    So could you comment on your intentions for this effort and 
perhaps on the North Carolina experience and its relevancy?
    Mr. Allbaugh. Well, thanks to the members of this 
committee, I believe we were funded at the $75 million level 
for 2002.
    Mr. Price. We did increase the request.
    Mr. Allbaugh. And I appreciate that. That was a nice 
increase over, I think, the $15 million a year we had been 
receiving. Water is our number one problem nationwide, and 
there is no way to address our water risk other than to have 
current maps. As I testified last year, it is a huge concern of 
mine, as well as individuals in the agency, trying to 
modernize, and that is why we went forward with such a large 
request.
    It is a matter of money, and I figured we can just solve 
the problem with a billion dollars, and I wanted to ask for a 
billion dollars, and Bob came back and said, No, let's don't do 
that; let's go a little bit slower. But I think funding at this 
level over a three- or four-year period, $300 million, will 
solve our problem. We are going to be able to have all the maps 
on the web by May 1 this year so communities can pull those 
down.
    Bob and his staff are looking at a variety of new ways, new 
technologies to enhance and expedite the modernization of the 
flood maps. It is a problem that has been ignored for years. I 
want to get it addressed. I want to solve the problem, and I 
congratulate North Carolina for stepping up to the plate. They 
basically put their money where their mouth was in joining us 
in a cooperative technical agreement to solve that state's 
problems.
    I talk about North Carolina often, how they stepped up to 
plate and took the responsibility, and it is an opportunity for 
me to herald their accomplishments, talk about our 
contribution. I think we kicked in about $5 million into that 
technical agreement along the way and challenge other states to 
do the same thing.
    I will be redundant, but water is our number one problem 
nationwide.
    Mr. Price. We are determined to continue in North Carolina, 
although our current budget problems are putting a strain on 
the effort. We can certainly use additional Federal resources.
    You talked about digitizing these maps and making them more 
widely available. I wonder if you could address the possible 
problems with that. If the map modernization proposal is 
focusing significantly on the digitizing of existing maps, some 
of which are outdated, converting them to a digital format 
isn't going to address those inaccuracies.
    So to what extent will you be able to assist states that 
seek to update maps with a better elevation and hydrological 
data and make certain that we are not simply perpetuating 
error?
    Mr. Allbaugh. I might ask Bob to further expound on this, 
but it is my understanding that the digitized maps willbe 
easier to correct and update once they are digitized, so we are not 
essentially throwing good money after bad. I think we are laying the 
foundation to expedite the process, and then we have to maintain those 
maps once they are updated, otherwise they will just be outdated maps 
once again.
    You may have something else you want to add.
    Mr. Shea. Just to add briefly, Congressman, the intent here 
is to drop the average age of a map of the twelve-year-old map 
to a six-year-old map. So as we go through this process of 
updating maps, it is at that point that we will begin looking 
at digitizing and what we are doing. But the clear emphasis for 
the next three- to five-year period has to be on updating the 
maps.
    Mr. Price. I see. So it is not one or the other. In fact, 
the digitizing process will facilitate the update.
    Mr. Allbaugh. It is complementary.
    Mr. Price. What about priority setting here in terms sort 
of analogous to the question I asked earlier about the 
mitigation? Do you have any rough and ready criteria for the 
order in which you will take on these challenges? How much will 
depend on the ability and willingness of states to put up 
matching funds or to partner in these efforts? To what extent 
will it be need driven or disaster proneness driven?
    Mr. Shea. Congressman, there is a variety of areas that we 
want to look at, including the recent disaster activity, the 
relative risks of states or the community. But I think the most 
important part of this is that we are right now engaging in 
conversations with each state to try and determine what areas 
they want to focus on and where they have priority needs as 
well. So it is through that communication process that we will 
be able to help satisfy both the state and local needs as well 
as our national objectives.
    Mr. Price. Thank you. I know my time has expired. Thank you 
again. I will have some additional questions for the record 
that I will submit.
    Mr. Knollenberg [presiding]. Mr. Allbaugh, we will take a 
five-minute recess.
    [Recess.]
    Mr. Knollenberg. The committee will come to order, and 
since I am the next in line, I will be the one to direct some 
questions.
    Mr. Allbaugh, again, I join the others in applauding the 
great effort and great work that you have done, and you have 
done it under stress and extremely difficult conditions. So we 
applaud that.
    Mr. Allbaugh. I apologize for taking up so much room on 
everyone's TV set. I just kind of turned out that way.
    Mr. Knollenberg. You weren't talking in reference to the 
size of you as an individual, but rather the times that you 
have been on?
    Mr. Allbaugh. No. Actually, I was referring to my own body 
size. [Laughter.]

              TERRORISM PREPAREDNESS AND NATIONAL BORDERS

    Mr. Knollenberg. Let me talk about a couple of things. One 
of these is sort of close to me. It is concerning the northern 
border. Where I live in Southeast Michigan, there is the 
Ambassador Bridge, where about 40 percent of the products that 
come in from Canada cross.
    We had a real problem on September 11th when that bridge 
literally backed traffic up for 12 or 14 hours. That has been 
eased, obviously, but there is $300 million of daily trade that 
comes across that bridge. Not disrespecting the other points 
along the border, but that is where most of it, 40 percent 
rather, comes through.
    So we are trying to make sure that Michigan is prepared for 
any possible event of a terrorist attack. Can you tell me a 
little bit about the efforts that you have made, if any, with 
respect to the border and what your recommendations might be?
    Mr. Allbaugh. I really can't. FEMA has not been focused on 
the border issue. That has been left to INS, Border Patrol, and 
a couple of other agencies. I have seen some recent technology 
that could be used with those containers to facilitate 
expediting that traffic and the flow of traffic across the 
bridge and many other points.
    Mr. Knollenberg. That doesn't come under you?
    Mr. Allbaugh. No, sir. That currently resides with Homeland 
Security.
    Mr. Knollenberg. But there are Homeland Security issues 
that are coming up, and those are the issues I guess that I 
would also like you to respond to. What have you done with 
respect to the state? We believe that the border is a huge 
potential problem or could be. When you shut down that bridge, 
you shut down the economy, not just in Michigan, but in some of 
the midwestern states.
    So we are concerned about any kind of a terrorist attack up 
there. What else have you done or what and what are you doing 
with respect to state officials? Are you working hand in hand 
with the local folks back in Michigan?
    Mr. Allbaugh. We utilize all of our relationships, whether 
it be state, local, or county relationships, to further train 
and make sure their knowledge is state of the art along with 
everyone else. And there isn't anything specific other than the 
training that we are doing right now.
    Mr. Knollenberg. Training?
    Mr. Allbaugh. Yes.
    Mr. Knollenberg. Training for?
    Mr. Allbaugh. Unusual events.
    Mr. Knollenberg. Training of individuals, training of 
people, training of personnel?
    Mr. Allbaugh. Yes.

     DISTRICT OF COLUMBIA/FEDERAL GOVERNMENT OFFICES AND TERRORISM 
                              PREPAREDNESS

    Mr. Knollenberg. Let me go to the District of Columbia. I 
am the chairman of the D.C. Appropriations Subcommittee, and 
obviously we had a bit of a problem in September as well, 
notably the Pentagon, but beyond that and after that, we had 
the problem with Anthrax and the concern that developed there.
    This may not also be under your agenda or on your agenda, 
but I know that one incident that happened on the 11th, and I 
am sure that wasn't anything that you had something to do with, 
but on that date, the Federal Government ordered 350,000 
workers to get out of town. Then they closed the 14th Street 
Bridge.
    Those kinds of things create a big bottleneck. I know that 
Connie Morella and her committee had made some comments in 
their review that was done, I think around the middle part of 
October, maybe the end of October, that the city was not 
prepared. And I have got some documentation here, which is 
relative to a publication that appeared in a newspaper, that 
they weren't prepared.
    Is there anything that you can tell us now that might 
indicate to us that the city is prepared, they have got things 
locked into some order so that they can anticipate in a better 
fashion?
    Mr. Allbaugh. I would say that the city is better prepared. 
We never can accept our level of preparation. We will always 
want to improve on it, but the city is better prepared than 
they were on September 11th.
    I know that we have a team that works in concert with the 
city's emergency management office, Peter Laport the Director, 
and there is a constant dialog between FEMA and emergency 
management for the city about how we can continue to prepare. 
We have a team, Emergency Response Team, that is specifically 
designed and delegated to responding in the District for all 
types of needs, something that we did not have in place on the 
11th. I put it in place since the 11th.
    So I think a continuing dialog with the city and making 
sure that everyone is trained to the best ability that we can 
be trained is all we can do right now.

                        FLOOD MAP MODERNIZATION

    Mr. Knollenberg. Thank you. Let me go back to the flood map 
situation, which I know that Mr. Price brought up. I 
appreciate, again, the recommendations you are making. Are you 
going to bring these reforms into play through your own agency 
or is this something that----
    Mr. Allbaugh. Depending upon which ones you are talking 
about.

                        FLOOD INSURANCE PROGRAM

    Mr. Knollenberg. You talk about two or three. You have got 
them lined up here. The reforms have to do with non-primary 
structures, including secondary homes, vacation properties, and 
rental properties. You want to phase out the subsidies, which I 
think is desirable.
    My question is why are you omitting primary properties.
    Mr. Allbaugh. I think our focus should be on primary 
properties.
    Mr. Knollenberg. When you are eliminating subsidies?
    Mr. Allbaugh. No, sir. When we are trying to ensure that 
individuals buy some type of flood insurance. We want to make 
sure that every, when it comes to their primary residence, is 
covered in some fashion or form. I think what we are proposing 
there is to eliminate those subsidies for secondary homes.
    Mr. Knollenberg. But not primary?
    Mr. Allbaugh. But not primary, no.
    Mr. Knollenberg. Tell me why not.
    Mr. Allbaugh. Because I think that our focus should be to 
try and get people to buy insurance on their primary property, 
and I think for the foreseeable future, we need to subsidize 
that program to entice more participation in the program.
    Mr. Knollenberg. Because they are not buying insurance?
    Mr. Allbaugh. They are not buying insurance, that is 
correct, on their primary property.
    Mr. Knollenberg. I am a little bit muddled about that, 
because I think that these subsidies have been around for a 
long time, before '74, pre-'74, post-'74, and I used to sell 
the Federal Government insurance back when I was in another 
life.
    I cannot understand why they could build a piece of 
property on a piece of property that was washed away and the 
repeat claims that took place. That is not your problem, but I 
guess I am suggesting why don't we just phase out subsidies, 
period?
    Mr. Allbaugh. Well, I think the desire is to have as many 
people participate in the flood insurance program as possible, 
and as an inducement to participate in their primary residence, 
we want to continue for some time some subsidy to help keep the 
premiums lower.
    Mr. Knollenberg. Let me ask you a question about that.
    Mr. Allbaugh. Excuse me, sir. Ultimately, we should do away 
with all of the subsidies.
    Mr. Knollenberg. You are trying to take this in a step-by-
step fashion?
    Mr. Allbaugh. Yes.
    Mr. Knollenberg. You also want to require that the mortgage 
borrowers must insure the full replacement. Full replacement, 
obviously, is not the amount of the mortgage loan. Lenders are 
only interested, apparently as we found, in just the amount of 
the mortgage balance.
    Mr. Allbaugh. Yes, sir.
    Mr. Knollenberg. But obviously that doesn't help the 
situation if tragedy occurs. So that also is something that you 
want and see that as a positive as well?
    Mr. Allbaugh. Yes.

                  TAXATION ON FLOOD INSURANCE POLICIES

    Mr. Knollenberg. Then on the issue, I didn't realize this, 
but are you saying that the states are taxing flood insurance 
policies?
    Mr. Allbaugh. They currently do.
    Mr. Knollenberg. All of them?
    Mr. Allbaugh. That is a request by OMB. I am not exactly 
for that right now.
    Mr. Knollenberg. This is an OMB request?
    Mr. Allbaugh. That particular item is. It happens to be in 
our budget. I am trying to be diplomatic here. Maybe the OMB 
person would like to answer this question.
    Mr. Knollenberg. Then do I take it that OMB also made the 
decision about the pre-mitigation, pre-disaster mitigation and 
the post-disaster mitigation? Did they make that determination 
too?
    Mr. Allbaugh. Yes.
    Mr. Knollenberg. No monies for post, but all the money 
for----
    Mr. Allbaugh. Yes.
    Mr. Knollenberg. Why?
    Mr. Allbaugh. I don't know, sir.
    Mr. Knollenberg. We should go to them?
    Mr. Allbaugh. Well, I don't have that answer.
    Mr. Knollenberg. I guess I want to make sure that I know 
these are not your recommendations.
    Mr. Allbaugh. Some of them, we are in agreements with those 
recommendations.
    Mr. Knollenberg. Which ones?
    Mr. Allbaugh. Well, the first two that you alluded to. I am 
not sure of the third one on taxation. You know, many states 
are in a financial bind, as is the Federal Government. I am not 
sure now is the time to go and ask them to comment on something 
that really isn't prudent.

                        FLOOD MAP MODERNIZATION

    Mr. Knollenberg. That helps me because I understand now 
where we have focus to try to improve conditions.
    Let me ask you, also, when it comes to--and I think Mr. 
Price might have covered some of this, but let's focus on 
Michigan. I know that over the years and dating back a few 
years, and may be some of the people in your assembly are 
familiar with this, but areas in my district that were mapped, 
they had them very poorly mapped. We struggled and struggled 
and struggled and finally got them to re-map it.
    I suspect that is something that occurs in a widespread 
fashion. As you go through this re-mapping that you are doing, 
you will find that there are people who are trying to build 
bridges where there is no river, trying to map properties that 
have no reference, no connection, not even close to any kind of 
a lake or a stream, and they are calling them flood-prone areas 
and they weren't. We had a terrible time, and we finally found 
a way to change that so that it was, in fact, improved.
    I particularly applaud what you are doing here. I think 
those maps are very outdated in a lot of areas, and I see some 
nodding going on back there. I had to deal with this before I 
came here, and I have had to deal with it since.
    If there is anybody in the assembly here that could speak 
to how quickly we can bring this mapping reorganization into 
play, I would like to hear from them.
    Mr. Allbaugh. Bob Shea could address it. We will startwith 
Bob Shea.
    Mr. Shea. The current plan is to bring these maps up to 
date in about a three- to five-year period of time. That is 
assuming the level of funding, and I think there is a forceful 
request by the Administration to try to do that.
    Mr. Knollenberg. If there is anything that we can do to 
help you push that----
    Mr. Shea. The thing I think we would look forward to is 
some kind of dialog with you about the program as we approach 
this.
    Mr. Knollenberg. Well, I think the ideas that are in 
combination with OMB are good. They are good reforms that 
should be done and should have been done perhaps a long time 
ago. But I also know that it has been very difficult to change 
any of this in the past years. We are doing this, it seems, 
very, very gradually. So if there is any way that we can 
increase the speed, accelerate the speed, by which we 
accomplish this, the better.
    I will take your suggestion. I will look at the subsidy of 
primary residences as well, and if we have to give it away to 
get people attracted to it, there is something wrong. There is 
something very wrong with that system. All the work you are 
doing, a lot of what you are doing, the good work gets phased 
out too in terms of the cost side, because these policies 
haven't been very cost effective. They haven't been cost 
neutral either.
    So I think we have got a job to do.
    I think my time is probably getting pretty close to the 
end. So I will return the chair to the rightful owner. Thank 
you.
    Mr. Allbaugh. Thank you, Congressman.
    Mr. Walsh. And we will recognize Mrs. Meek.
    Mrs. Meek. Thank you, Mr. Chairman.
    Mr. Allbaugh, it is good to see you again.
    Mr. Allbaugh. Thank you, ma'am. I appreciate it.

                    HAZARD MITIGATION GRANT PROGRAM

    Mrs. Meek. I will put on the record that as a 
Congressperson, I appreciate your style and your candor in 
dealing with problems which we have. So we are glad you are 
here today.
    I have a few questions regarding the 404 program, the 
hazard mitigation program. It is very important to us in 
Florida, because we know that when these disasters strike us, 
that the state is going to receive an amount that is equivalent 
of 15 percent of the total of FEMA funds sent to the state, at 
least that is what it did. I see you shaking your head. Am I 
right?
    Mr. Allbaugh. It is currently 15 percent. It will go to 20 
percent.
    Mrs. Meek. That is right. So I am very glad to see that 
happen.
    But I also note that in your budget, you are now bringing 
in a new program which is competitive. I guess it isn't new, 
but you are renaming it the pre-disaster mitigation.
    Mr. Allbaugh. Yes, ma'am.
    Mrs. Meek. Doesn't that require authorizing by an 
authorization committee?
    Mr. Allbaugh. I don't think so. I think under our current 
statute, authorizing statute, we have the capability to 
implement this program. This is a request to enhance pre-
disaster mitigation, give people a bite of the apple before an 
incident takes place.
    Mrs. Meek. And that is the reason why you changed it?
    Mr. Allbaugh. That is the reason we would like to change 
the program, but not throw out the post-disaster mitigation at 
the same time. I would like to have two opportunities to 
address mitigation issues.
    Mrs. Meek. And you want this committee to do that?
    Mr. Allbaugh. I believe so.
    Mrs. Meek. So you asked for $300 million a year for that?
    Mr. Allbaugh. Yes, ma'am.
    Mrs. Meek. What did you use to determine that, Mr. 
Allbaugh?
    Mr. Allbaugh. I can't answer.
    Bob, maybe you can answer that question.
    Mr. Walsh. Identify yourself for the record, please.
    Mr. Shea. My name is Bob Shea. I am the Acting 
Administrator of Federal Insurance Mitigation Administration, 
which is part of FEMA.
    Congresswoman, the way that we generated the estimate was 
we looked at the history of the program, and since 1989 when 
the program was formed initially, we have had average annual 
obligations of approximately $250 million a year. Added to that 
is the continuation of a pre-disaster mitigation program at the 
$25 million level and some expenses associated with it.
    Mrs. Meek. So that is how you did it?
    Mr. Shea. Yes, ma'am.
    Mrs. Meek. This program is formula driven, isn't it, 
Director?
    Mr. Allbaugh. It is formula driven on the post-disaster 
mitigation, the 15 percent. We would like to make the $300 
million pre-disaster mitigation a competitive grant program. 
There are many communities, as I said earlier, who have 
identified their risks right now, and we would like to give 
them the opportunity to remove those risks.
    Mrs. Meek. I have some concerns with that. I am sure it is 
going to be fair, but before you did have a formula, which sort 
of like determined how you did this program, and now it is 
competitive, which means that unless there is a lot of capacity 
building, there may not be the equity in the program which I am 
sure you want to be here.
    So that is something.
    Mr. Shea. Congresswoman, that is an area of concern for us 
as well, and part of the way we would like to approach this is 
we do have the period of time between now and late September. 
So we are going to use that as an opportunity to engage our 
constituents at the state and local level in the way to 
formulate how the program will work.

         MINORITY EMERGENCY PREPAREDNESS DEMONSTRATION PROGRAM

    Mrs. Meek. Thank you. Last year, when this committee had 
its Congress report on the floor or before the Congress report, 
there was an amendment added to it, which the chairman and the 
ranking member accepted. It had to do with a minority emergency 
preparedness demonstration program. What it did, we voted on it 
last year, the purpose of that amendment, which was passed, was 
to establish a new program under FEMA called the Minority 
Emergency Preparedness Demonstration Program.
    Is there anyone here that knows anything about whether or 
not that program is going to be implemented and when?
    Mr. Allbaugh. I have to apologize. I have not heard of this 
before, but I will sure find out and respond to you.
    Mrs. Meek. I would appreciate that.
    Mr. Allbaugh. When was this passed again?
    Mrs. Meek. Mr. Chairman?
    Mr. Walsh. I think it was an amendment. Yes. There was an 
amendment offered by Mrs. Meek last year.
    Mrs. Meek. It was Sanford Bishop.
    Mr. Walsh. It was Sanford Bishop. I am sorry. To amend the 
2002 appropriation, and we accepted it.
    Mr. Allbaugh. It was part of the supplemental?
    Mr. Walsh. No. It was part of the fiscal year 2002 
appropriation.
    Mr. Allbaugh. Well, then we haven't done our job, and I 
apologize. We should be on top of that. That is something that 
Congress passed and it is directed at our agency. We will take 
care of it, and we will find out what it is and be on top of it 
and respond to the members of the committee.
    Mr. Walsh. If you would get back to all of us.
    Mr. Allbaugh. I would be a happy to do that.
    Mrs. Meek. Thank you.
    Mr. Allbaugh. I apologize. This is the first time I have 
heard of this.
    [The information follows:]

         Minority Emergency Preparedness Demonstration Program

    As you are aware, the Minority Emergency Preparedness 
Demonstration Program was included in PL 107-73, the 
Departments of Veterans Affairs and Housing and Urban 
Development, and Independent Agencies Appropriations Act, 2002. 
In this Act, Congress requested that FEMA ``establish a 
minority emergency preparedness demonstration program to 
research and promote the capacity of minority communities to 
provide data, information, and awareness education.'' As part 
of the Appropriations Act, Congress authorized but did not 
appropriate $1.5 million for this program for Fiscal Year '02. 
Establishing this program has not been possible without a 
direct appropriation and specifically in light of the 
additional fiscal and administrative demands currently placed 
on FEMA.
    FEMA conducts a broad set of outreach activities that 
reaches that most vulnerable groups in our communities. I can 
assure you FEMA has been very aggressive in providing outreach 
programs to minority communities and will continue to do so 
with the help and direction of the Committee. Some examples of 
our outreach efforts:
    We have increased our outreach to minority communities, 
with initial emphasis on the African American community. We 
work with the Minority Emergency Preparedness and Information 
Project (EPIP), a public/private partnership established to 
provide outreach to minority communities in emergency 
preparedness.
    FEMA is working closely with the 7th District (South 
Carolina) of the African Methodist Episcopal Church to provide 
technical assistance to their statewide disaster preparedness 
project.
    We are working with Women in the NAACP (WIN/NAACP) on the 
development of their disaster preparedness initiative. This 
initiative provides for disaster training to State and local 
WIN/NAACP leaders, and helps to establish their relationship 
with Federal, State and local emergency managers nationwide.
    We have participated with WIN/NAACP and the African 
Methodist Episcopal Church in conducting emergency preparedness 
outreach workshops throughout the country as part of our 
increased emphasis on reaching out to and coordinating with 
minority communities.
    We are coordinating closely with tribal governments across 
the country in planning, training, and exercises to enhance 
tribal emergency preparedness.
    We are increasing our emphasis on the Hispanic community 
and translating more of our emergency preparedness materials 
into Spanish. We are already working with Hispanic staff in the 
areas of training; chemical, radiological, and hazardous 
materials preparedness; and customer service. In addition, our 
objectives for this fiscal year include initiating a 
partnership with a national Hispanic organization and 
establishing outreach channels to especially vulnerable groups 
in high disaster impact areas.
    FEMA networks with major Community Based Organizations CBOs 
(e.g., National Community Conservation Corps, councils on the 
disabled, ethnic groups, professional and labor organizations) 
that have established groups in disaster areas. These 
organizations are conduits for information to and from the 
hard-to-reach populations in a disaster and may also facilitate 
contact with disaster victims through sponsorship of meetings, 
distribution of printed information, linkage to community 
resources, etc.

  MINORITY PARTICIPATION IN TOP LEVEL ADMINISTRATION POSITIONS AT FEMA

    Mrs. Meek. Well, you know, Director, I ask this question 
every time FEMA or any other agency comes before this 
committee: In terms of your top level--this has nothing to do 
with my last question. In terms of your top level 
administrators, I don't see many African Americans at the 
table, nor do I see them in here.
    In keeping with what I know is important to this country, 
do you have any plans to place some minorities in your top 
level administration? President Bush did. He set a very good 
example. I just would like to know do you have that in mind for 
your management?
    Mr. Allbaugh. I do. Ron Miller, I brought on board to run 
our IT. He is the Assistant Director for IT. The President is 
about to announce someone to head up Federal insurance who is 
an African American. I am very proud to have him on board. I 
don't think it is my position to steal the President's thunder 
on the nomination, but that is forthcoming.
    I am personally striving all the time, and the staff can 
tell you how I focus on the issue of attracting minorities into 
FEMA. One of the things I am deeply concerned about, our agency 
in the next two years, 45 percent of the agency is eligible for 
retirement, and we need to be aggressively recruiting people 
from all walks of the life to come and join us at FEMA.

                           UNIVERSITY PROGRAM

    Mrs. Meek. Thank you. My other concern has to do with the 
university program and how important that is. You did address 
that question, because Mr. Price asked something relevant to 
this question.
    Mr. Allbaugh. And I owe you a visit. I still owe you a 
visit.
    Mrs. Meek. You do. What you did last year will make up for 
this year. But I am concerned about this program in that the 
universities are doing some very, very significant work, which 
really requires the assistance of your agency in terms of 
funds, and according to what I have read, there is about $15 
million in Federally-funded research that universities are 
doing.
    So my question is you started a program last year, FEMA did 
in 2002, which six universities were included. They were 
selected as pilots. My university, University of Miami, was in 
that particular program, and it is to help them assess their 
vulnerabilities and to find ways to protect the projects that 
they have, the research and facilities and the lives of 
students, faculty, and staff.
    It was funded last year, and the universities matched the 
grants. What plans do you have for making it a future program 
and to implement the Congress report language?
    Mr. Allbaugh. If you don't mind, ma'am, let me ask Bob Shea 
to respond to that question.
    Mrs. Meek. All right.
    Mr. Shea. Thank you, Congresswoman. You are absolutely 
correct. We have a very, very successful pilot initiative with 
several universities across the country, and we are in process 
of collecting that information. We will publish it and make it 
available to the rest of the universities. Importantly, we look 
forward to--in a previous answer to the grant program, one of 
the categories that we want to target is the university family. 
So they will be part of the eligible list.

                        FLOOD INSURANCE PROGRAM

    Mrs. Meek. Thank you. My last question has to do with the 
flood insurance program in that you report some changes in it, 
and it is very important to Florida. And one of them is you are 
requiring homeowners to purchase insurance up to the value of 
the property, rather than the value of the loan, and in doing 
so, I would like to know what is the rationale for making that 
change, and would that change too require authorization from 
the authorizing committee.
    Mr. Allbaugh. Let me ask Howard Leikin to respond to that 
question, please.
    Mr. Leikin. I am Howard Leikin, Deputy Administrator. The 
rationale behind this proposal is to bring our mandatory 
purchase requirement in line with what has been common practice 
now for about 25 years in the insurance and lending industries. 
When our act was originally passed requiring insurance, the 
common practice at that time was the outstanding balance of the 
loan. That was in the early seventies.
    That has since changed, and this change would bring us more 
in line with more normal practice today. It has advantages 
certainly for the property owners in that they are better 
protected. It has advantages for the Government in that we have 
fewer uninsured losses.
    Mrs. Meek. Would that have some negative impact on the 
national flood insurance program in that budget?
    Mr. Leikin. Negative impact? I think we see this as 
something with a positive impact in that it helps us maintain 
the integrity of our rating system.
    Mrs. Meek. But in terms of the budget.
    Mr. Leikin. In terms of the budget, it would be revenue 
neutral.
    Mrs. Meek. All right.
    Mr. Leikin. Particularly now in that we don't have, at the 
moment, a big under-insurance problem generally, but that is 
because of some market forces that are in play there. And so we 
are concerned for the future, and this would help us to stave 
off problems in the future. It would require legislative 
language.
    Mrs. Meek. One more last thing if I have the time, Mr. 
Chairman. Do I have any more time?
    Mr. Walsh. I believe you have two or three more minutes.

                  EROSION RISK AND INSURANCE PREMIUMS

    Mrs. Meek. My question has to do with the map erosion risk 
that you have now, and you want to change the premiums on this. 
You want it to cover erosion damage.
    In my State of Florida, we have very little erosion. Wehave 
beach nourishment and beach erosion, but throughout the state, we have 
very little erosion. So I would just like to know how much is going to 
be saved by this, by your making this change?
    Mr. Leikin. The erosion problem all along the eastern 
seaboard and the gulf, and other areas to a lesser extent, is 
something that is going to be a significant issue for us going 
on in the future. The proposal would give us the authority to 
provide better information for people to use, based on maps, 
which we really need to take into account future conditions.
    Mrs. Meek. I really want to congratulate you on the maps. 
That is one of our biggest problems in Florida. I was just 
wondering if you are going to change the premiums for this 
erosion damage; would that have a negative impact. To what 
extent would it change the premiums? Will it make it cost 
prohibitive? Talk to me a little bit about that.
    Mr. Leikin. There is certainly a concern that we share that 
if the delineation of the risk and how that gets carried 
forward into the premium structure is too refined, it could 
result in some very high premiums. It would be important for us 
to strike that balance, working with this committee, working 
with others, where we reflect an appropriate premium that will 
help people understand what the risk is and perhaps influence 
either new construction siting in dangerous areas or taking 
mitigation action, but not to create a situation where 
unnecessarily we have unaffordable premiums.
    Mrs. Meek. Thank you. Thank you, Mr. Chairman and thank 
you, Mr. Allbaugh.
    Mr. Allbaugh. Thank you, ma'am.
    Mr. Walsh. Mr. Goode.
    Mr. Goode. Thank you, Mr. Chairman, Mr. Allbaugh.
    First, I want to say I think you have done a great job. 
Every time I have seen you on television, you are doing a good 
for FEMA and for the United States Government and for the USA.
    Mr. Allbaugh. Thank you.

                           FIRE GRANT PROGRAM

    Mr. Goode. Thank you. I have question is what level are you 
experiencing now and anticipate having in the request for funds 
for fire departments under the FEMA grant program?
    Mr. Allbaugh. The Fire Grant program?
    Mr. Goode. Yes, sir.
    Mr. Allbaugh. Well, let me respond to you this way.
    Mr. Goode. The deadline is April 1st.
    Mr. Allbaugh. Right. We just opened up the application for 
2002 March 1st. Already there have been, I believe, six, seven 
thousand people, departments that have responded. The Fire 
Grant program last year, we received out of 33,000 departments 
nationwide, 20,000 requests for about $3 billion for a $100 
million program.
    So the demand is there for basic firefighting needs. I 
appreciate and am excited that Congress saw fit to increase not 
only the hundred million last year to $150 million, but adding 
in the supplemental another $210 million. So we have $360 
million. We are going to do our dead level best to get that out 
the door as soon as we possibly can.
    We are better than where we were last year at this time. We 
were essentially nowhere. In a five-month period, we did get 
every dime out the door, and I am very proud of the staff and 
members of the fire service who came in and donated their time 
to assist in that competitive grant program.
    It is my desire, quite frankly, that that remain a stand-
alone grant program. I know there are discussions to raise up 
to $900 million. I could make a pledge to this committee, 
whatever you all fund to the Fire Grant program now, we will 
get out the door. It is a very worthwhile program, and I am 
excited about it personally.

                        FLOOD MAP MODERNIZATION

    Mr. Goode. Thank you. The other thing I wanted to ask you 
about was something Congressman Knollenberg and probably some 
others mentioned. That is the flood map modernization. In 
particular, Lake Gaston, which is partly in North Carolina and 
partly in Virginia, and John Kerr Reservoir, which is also in 
both states, many of the local surveyors feel that a number of 
properties are listed as being in a flood plain that are not in 
a flood plain. The elevation level is 204 feet.
    I have sent something to your office about this, and I am 
wondering if there is any way you could work more closely with 
the local surveyors and if they are able to certify the 
particular property as not below the 204-foot elevation. Then 
it would be outside the flood plain. That is what you all say. 
I like that is what the flood level is. Is there any way to get 
that--you don't even have to redo the map if you would pay more 
attention to the local surveyors.
    Mr. Allbaugh. That is a little beyond my pay grade. So 
could I ask Bob Shea to respond to that question, please.
    Mr. Shea. Congressman, thank you. Actually, I sent a letter 
to you very recently about this specific situation, and we were 
in fact able to work with the local surveyors to take a number 
of properties out of the flood plain as part of that effort. I 
will re-commit and contact your office and see if we can't set 
up something with your local surveyor community so we can work 
more directly with them.
    Mr. Goode. I think if you do that, that would be a big 
help, and I appreciate your letter. It looked to me as if you 
are going in that direction.
    Mr. Shea. Thank you.
    Mr. Goode. That is all I have, Mr. Chairman.
    Mr. Walsh. Thank you.
    Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.
    Mr. Allbaugh, let me join in my colleague's comment. I 
think you do an excellent job.
    Mr. Allbaugh. Thank you.

                            FINANCIAL AUDIT

    Mr. Fattah. I do have a couple of questions, however. One 
is about the audit that was done that you initially moved from 
three years of clean audits to the qualified opinion. If you 
can respond to that, it would be helpful. And I have some other 
brief questions.
    Mr. Allbaugh. I am probably the reason why we had an audit 
in question this year. When I showed up a year ago, I asked 
that we deal our cards on top of the table, was told about this 
discrepancy of about $77 million that had been carried on the 
books at least since '95, and I said, Look, let's disclose 
everything and take whatever hits we need to; it will help our 
financial process in the future.
    And I fully understand why we took the hit we did, probably 
deserved, but now that we have done this, it will better us in 
the future to maintain our records, and Matt may have a follow-
up, if necessary, sir.

  PROCUREMENT AND SMALL BUSINESS, MINORITY-OWNED BUSINESS, AND WOMEN-
                      OWNED BUSINESS PARTICIPATION

    Mr. Fattah. It is not necessary. I would like to know to 
what degree you have had success to date in encouraging small 
businesses, minority-owned business, women-owned business, in 
the procurement side of FEMA. What is the level of 
participation?
    Mr. Allbaugh. I can respond in writing insofar as who 
participates or the quantity of the small businesses. I know 
that we offer not classes, but workshops all the time, trying 
to encourage small businesses, minority-owned businesses to 
participate in our procurement side.
    Mr. Fattah. I would really like to get some information on 
that.
    Mr. Allbaugh. I would be happy to respond to you, sir.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Fattah. I want to follow up to Congresswoman Meek's 
question. Before your arrival at FEMA, there had been 
circumstances reported in which, even though there were 
disasters, that there wasn't the same level of relief provided 
in various communities with the same sense of urgency. Again, I 
understand this has nothing to do with your tenure at the 
agency.
    I think that the effort of Congressman Bishop and the 
amendment that was offered and accepted was to create a process 
that was supposed to be a more fuller appreciation for the fact 
that both sides of track in a town have been flooded out, and 
both sides should get whatever relief the Federal Government is 
willing to provide.
    Mr. Allbaugh. Again, I apologize for not knowing about this 
program that Congressman Bishop authored. We will find out and 
respond. Secondly, I have a basic theorem in life: What is fair 
for one is fair for all.
    [The information follows:]

            Procurement and Small or Minority-Owned Business

    As you are aware, the Minority Emergency Preparedness 
Demonstration Program was included in PL 107-73, the 
Departments of Veterans Affairs and Housing and Urban 
Development, and Independent Agencies Appropriations Act, 2002. 
In this Act, Congress requested that FEMA ``establish a 
minority emergency preparedness demonstration program to 
research and promote the capacity of minority communities to 
provide data, information, and awareness education.'' As part 
of the Appropriations Act, Congress authorized but did not 
appropriate $1.5 million for this program for Fiscal Year `02. 
Establishing this program has not been possible without a 
direct appropriation and specifically in light of the 
additional fiscal and administrative demands currently placed 
on FEMA.
    FEMA conducts a broad set of outreach activities that 
reaches the most vulnerable groups in our communities. I can 
assure you FEMA has been very aggressive in providing outreach 
programs to minority communities and will continue to do so 
with the help and direction of the Committee. Some examples of 
our outreach efforts:
    We have increased our outreach to minority communities, 
with initial emphasis on the African American community. We 
work with the Minority Emergency Preparedness and Information 
Project (EPIP), a public/private partnership established to 
provide outreach to minority communities in emergency 
preparedness.
    FEMA is working closely with the 7th District (South 
Carolina) of the African Methodist Episcopal Church to provide 
technical assistance to their statewide disaster preparedness 
project.
    We are working with Women in the NAACP (WIN/NAACP) on the 
development of their disaster preparedness initiative. This 
initiative provides for disaster training to State and local 
WIN/NAACP leaders, and helps to establish their relationship 
with Federal, State and local emergency managers nationwide.
    We have participated with WIN/NAACP and the African 
Methodist Episcopal Church in conducting emergency preparedness 
outreach workshops throughout the country as part of our 
increased emphasis on reaching out to and coordinating with 
minority communities.
    We are coordinating closely with tribal governments across 
the country in planning, training, and exercises to enhance 
tribal emergency preparedness.
    We are increasing our emphasis on the Hispanic community 
and translating more of our emergency preparedness materials 
into Spanish. We are already working with Hispanic staff in the 
areas of training; chemical, radiological, and hazardous 
materials preparedness; and customer service. In addition, our 
objectives for this fiscal year include initiating a 
partnership with a national Hispanic organization and 
establishing outreach channels to especially vulnerable groups 
in high disaster impact areas.
    FEMA networks with major Community Based Organizations 
(CBOs (e.g., National Community Conservation Corps, councils on 
the disabled, ethnic groups, professional and labor 
organizations) that have established groups in disaster areas. 
These organizations are conduits for information to and from 
the hard-to-reach populations in a disaster and may also 
facilitate contact with disaster victims through sponsorship of 
meetings, distribution of printed information, linkage to 
community resources, etc.

    Mr. Fattah. Again, it has nothing to do with your tenure at 
the agency. It was not directed at you.
    Mr. Allbaugh. I understand.
    Mr. Fattah. We just want to move in a positive direction.
    Thank you, Mr. Chairman.
    Mr. Allbaugh. I agree with you. Thank you.
    Mr. Walsh. All set?
    Mr. Fattah. Yes.
    Mr. Walsh. It looks like I am up again. Do you want to take 
a break?
    Mr. Allbaugh. No. I am fine. Can I quit?

                        FIRST RESPONDERS PROGRAM

    Mr. Walsh. No. Congressman Hobson is over in defense. When 
he comes back, I will just put him next in line, but there are 
a few more questions I would like to ask.
    The budget request for the First Responders initiative is 
three and a half billion dollars.
    Mr. Allbaugh. Yes, sir.
    Mr. Walsh. The budget is somewhat vague on how the money is 
to be spent, but it does indicate that up to $500 million won't 
be spent until Fiscal Year 2004. Given that the Department of 
Justice estimates that at most it could make grants of only 
$325 million in any one year, how do you plan on distributing 
almost $3 billion in one year, while at the same time ensuring 
that the funding is going for the highest priority, and in 
light of the $360 million that, in your words, we have to get 
out the door for fire, we have got another three billion for 
First Responders in 2003.
    Mr. Allbaugh. Well, we have the capability of doing that. 
We are a very large grant agency. We did in 2001 over $3 
billion in grants to state and local entities. This year alone, 
we will do $7.2, $7.5 billion.
    We have a process to get this money out the door. I am not 
worried about doing that. I am concerned about your reference 
of $500 million is not expendable until 2004.
    Mr. Walsh. Well, the budget request indicates that up to 
$500 million won't be spent until Fiscal Year 2004.
    Mr. Allbaugh. I am unaware of that. I need to find out what 
that is about.
    Do you want to take a stab at that, Matt?
    Mr. Jadacki. Yes. What happened, OMB felt a reasonable 
amount to carry over would be $500 million. We do have the 
infrastructure in place to deal with this on a regular basis. 
So getting the money out the door is not an issue. So we should 
be able to get that money out as quickly as possible.
    Again, given the size of $3.5 billion, doubling the size of 
the budget, they believe that it is probably untenable for the 
agency to get that money out. We believe we can. Again, it is 
just a safety valve that is inserted into the budget.
    Mr. Walsh. I know you are acting. I don't know how much 
time you have spent dealing with the Federal Government, but if 
there is a budget request for a certain amount of money and 
there is an assumption that it can't be spent this year, that 
all of a sudden becomes fair game.
    Mr. Jadacki. I understand.
    Mr. Allbaugh. We can spend the money.
    Mr. Walsh. As Sister Mary Joseph used to say, a word to the 
wise is sufficient.
    Mr. Allbaugh. I appreciate that.

                     URBAN SEARCH AND RESCUE TEAMS

    Mr. Walsh. There are 28 urban search and rescue teams 
spread across the country. During the events of last fall, 26 
of these teams were used in some capacity. What lessons have 
you learned from the use of the urban search and rescue teams 
at the World Trade Center disaster, and how are those lessons 
being incorporated into the outfitting and training of these 
teams? And I believe in the budget request, there was an 
anticipation of additional search and rescue teams.
    Mr. Allbaugh. I think the budget request was for additional 
training and equipment purchases.
    Mr. Walsh. Not for additional teams?
    Mr. Allbaugh. Not for additional teams. You may have 
stepped out of the room. I am leery of adding more teams to our 
national infrastructure until we can get all the teams up to 
the necessary training and equipment caches that we believe is 
necessary.
    The ISD out of New York City and the Pentagon are to 
respond the 1st of next month to me with lessons learned. I 
know our deployment issues need to be addressed and fine tuned. 
There is a disparate--there is a wide gap between the types of 
training that various teams do. Most of these teams are funded 
locally. We don't fund them as nearly as we should, which is 
why I stepped forward with the $15 million request in this 
year's budget for further enhancing the 28 teams.
    But I just feel strongly, and again, only eight of the 28 
are WMD trained.
    Mr. Walsh. How trained?
    Mr. Allbaugh. Weapons of mass destruction, WMD trained.
    Or is it six?
    Mr. Baughman. Six.
    Mr. Allbaugh. Six. Whatever it is, it is not sufficient.
    Mr. Walsh. Do you anticipate training all of them?
    Mr. Allbaugh. Yes, sir. That is a part of the request for 
the funding, is to train them all.
    Mr. Walsh. That is part of the three and a half billion 
dollar request?
    Mr. Allbaugh. No, sir. This is a separate amount that we 
have in the budget. I asked for $15 million. I believe OMB cut 
it back to six million.
    Mr. Walsh. So we are talking about three and a half billion 
for 2003, but you anticipated a billion needed for 2002 in the 
supplemental.
    Mr. Allbaugh. Yes.
    Mr. Walsh. So tell me if my assumption is wrong here. You 
are going to sit down, sort of do an analysis of after the fact 
with the New York team and the Northern Virginia, Pentagon 
team, and draw from that the sort of support, equipment, 
training you need to staff up and develop the other teams.
    Mr. Allbaugh. That is correct. I think we have a pretty 
good idea, and I would ask Bruce Baughman to expand on that. In 
the supplemental, I do know that we are asking for about $32 
million for USAR alone for 2002 to further enhance those 
lessons learned.
    Is there anything you want to add to that, Bruce?
    Mr. Baughman We are asking for $32.4 million to train the 
remainder of the teams, the other 22 teams to be skilled in 
responding to terrorist attack, weapons of mass destruction.

                             CITIZEN CORPS

    Mr. Walsh. Part of the President's initiative in response 
to 9-11 has been this volunteer portion.
    Mr. Allbaugh. Yes, sir.
    Mr. Walsh. And the Civilian Corps. I get a lot of questions 
up home as to how this will be developed. This subcommittee 
also has oversight of Americorps' budget too. I know they are 
separate. They all come under USA Freedom Corps.
    Mr. Allbaugh. Yes, sir.
    Mr. Walsh. But if you could just sort of give us your 
vision of how the Civilian Corps will supplement police, fire, 
First Responders, Medivac, that sort of thing.
    Mr. Allbaugh. The best way for me to respond to that 
question is what we have actually experienced in a short period 
of time. Since our Citizen Corps web site went up, we have 
received over one million hits. These are people who of their 
own initiative wanted to find out about Citizen Corps. I don't 
recall how many actually filled out the form. We can get that 
number for you.
    But this is a ready-made pool of individuals who don't have 
to be asked. They are volunteering to be properly trained. To 
take that a step further, there was a program designed in the 
mid-eighties, Citizen Emergency Response Teams out of the Los 
Angeles Fire Department. FEMA correctly, in I believe the early 
nineties, picked that program up. It is now a cornerstone of 
our training in Emmitsburg where we train trainers to send back 
into communities to train volunteers. It is an 18-hour program, 
trained in a variety of areas where volunteers can be certified 
in supporting members of the Fire Department, the Police 
Department, utilities for the community. It is aimed at 
properly training, also, city managers, mayors, other elected 
officials. It is a fantastic program.
    That is one part of Citizen Corps, and then we will enhance 
some training in--there are three or four others, and I can't 
remember what they are right now.
    Mr. Walsh. Maybe it will come to you. So what sort of 
structure do you see on the ground in each of these areas? I 
mean will they relate to a city or a county or a township?
    Mr. Allbaugh. Primarily cities, but maybe the lowest common 
denominator local government entity that is available in that 
area. The hope is to encourage citizen councils to come 
together and provide a command structure for that community, 
and we would include the mayor or county commissioner or the 
elected officials, plus police chief, fire chief, city manager, 
to make sure that, one, there is a command structure having the 
ability to make decisions that will be in place, and also, that 
is where we would do the states necessary training with the 
citizen councils and these volunteers to teach them how they 
can be of assistance when there is an incident.
    Mr. Walsh. We have in my home town an emergency response 
manager for the county. I can't think of his exact title, but 
euphemistically, he is referred to as the master of disaster, 
if you would like to take that title on.
    Mr. Allbaugh. No, I would not.
    Mr. Walsh. But anyway, his job is to respond and to 
coordinate police, fire, and so on. Would there be a Federal 
person sort of equivalent in each of these locations on the 
Federal payroll to coordinate?
    Mr. Allbaugh. No, sir. No, sir. This is a total volunteer 
effort with Citizen Corps. We will provide teachers, trainers, 
instructors to those local communities, help them set up a 
citizens council if they do one as you have in your community. 
But I do not want to be in the personnel business and having a 
paid person in every community.
    Mr. Walsh. Mr. Aderholt has returned. I will give him an 
opportunity to ask some questions. Thank you.
    Mr. Aderholt. Thank you.
    Good to have you here today.
    Mr. Allbaugh. Thanks very much.

                           FIRE GRANT PROGRAM

    Mr. Aderholt. I am going to be very brief. I wanted to ask 
about the Fire Grant program. I know that within the Fire Grant 
program, all the funds don't go to rural fire departments, but 
a large part of it does. That has been a tremendous help in a 
lot of areas that I represent, especially when you have a 
declining tax base to fuel some of the funds for the local fire 
departments. So I think that has been an excellent job.
    I understand that the new budget mentions about $150 
million that is being combined with other funds as part of the 
First Responder grant. My question was do you see this $150 
million as being spent on the Fire Grants alone, or are they 
going to be combined into some other broad category of anti-
terrorism expenditures?
    Mr. Allbaugh. No. I see the 150 plus the 210 for 2002 and 
2003 being spent on basic firefighting needs. Now, there will 
be an ancillary benefit of spending that money that will 
enhance the natural capabilities of the local fire department 
to help in the terrorism area, but these are basic firefighting 
needs that communities have, and we have given--I think 
restructured the program from last year to have four broad 
categories that are further enhanced with specific programs. 
There is quite a variety of programs that the communities can 
choose from, and we will get every dollar out the door and 
spent as wisely as we possibly can.
    Mr. Aderholt. Good. Thank you.
    Mr. Walsh. All set?
    Mr. Aderholt. Yes.
    Mr. Walsh. Thank you.
    Mr. Allbaugh, are you ready?
    Mr. Allbaugh. Can we take a break?
    Mr. Walsh. Sure.
    Mr. Allbaugh. Would you mind?
    Mr. Walsh. No.
    [Recess.]
    Mr. Walsh. The subcommittee will come to order. Mr. 
Mollohan has the time.

              FIRST RESPONDERS PROGRAM TRAINING FACILITIES

    Mr. Mollohan. Mr. Chairman, I have a line of questioning 
about the training facilities and the question of whether the 
training facilities are going to be transferred to FEMA from 
Justice and will FEMA monies be used to support these 
facilities. Is there a plan to transfer these facilities?
    Mr. Allbaugh. There is a plan to transfer those facilities. 
I look forward to having those facilities to augment our one 
training facility in Emmitsburg. We need to have these 
facilities. As I understand, there are five of them at ODP, and 
it would enhance our ability to train more people nationwide.
    Mr. Mollohan. So you are saying there is a plan to transfer 
these training facilities?
    Mr. Allbaugh. As part of the overall transfer of ODP to 
FEMA, yes, sir.
    Mr. Mollohan. Okay. In fairness, I am advised that all 
Justice Department's training facilities will not be 
transferred to FEMA. Some of the money for FEMA will be used to 
support these facilities.
    Mr. Allbaugh. Only the facilities that deal with training 
the First Responders. That is what I am talking about. They 
have a multitude of training facilities nationwide.
    Mr. Mollohan. So when we talk about these training 
facilities, your first response was to the First Responder 
training program.
    Mr. Allbaugh. Yes, sir.
    Mr. Mollohan. In addition to Fort McClellan, what other 
training facilities conduct terrorist-related training or 
provide technical assistance? Are they at the Justice 
Department?
    Mr. Allbaugh. Right. I can respond back in writing. I just 
don't remember those off the top of my head, sir. I think there 
are four or five in addition to that.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                             CITIZEN CORPS

    Mr. Mollohan. Does the Citizen Corps come under the $3.5 
billion, or does it come from elsewhere?
    Mr. Allbaugh. The $230 million part of $3.5 billion?
    Mr. Mollohan. Right.
    Mr. Allbaugh. In OMB's mind, it does. In mine, it doesn't. 
I would like for the 3.5 to be solely expended in the area of 
First Responder activity and training.
    Mr. Mollohan. So you want that broken out and funded 
separately?
    Mr. Allbaugh. I would. This year, I think it is $230 
million.
    Mr. Mollohan. Mr. Chairman, I would like to thank the 
director, and I very much appreciate the hearing. I am sure you 
will continue to do an excellent job, as you have been doing, 
directing the agency. Thank you for your efforts and your 
service.
    Mr. Allbaugh. Thank you, sir.
    Mr. Walsh. I just have one remaining question, and if 
Congressman Hobson doesn't return, I think we will probably 
conclude. And the question is regarding the emergency food and 
shelter program.
    Mr. Allbaugh. Yes, sir.

                   EMERGENCY FOOD AND SHELTER PROGRAM

    Mr. Walsh. The budget proposes moving the FEMA emergency 
food and shelter program to the Department of Housing and Urban 
Development, citing the rationale of consolidating all homeless 
programs. While under the control of FEMA, the program has been 
the model of efficiency and has been able to deliver services 
to those who are in temporary need, but are not necessarily in 
need of long-term help.
    Why should we try to fix something that isn't broken?
    Mr. Allbaugh. My only answer is that I do believe it fits 
better with HUD's overall mission with communities. It has been 
a phenomenal program. We have operated it very successfully, 
contrary to what OMB put in their budget, that it had not been 
operated properly the last couple of years.
    Other than that, there is no reason to transfer, but it is 
something the Administration is interested in doing, and I have 
had a conversation with Secretary Martinez, and it will 
continue doing well and surviving in first class fashion under 
his stewardship.
    Mr. Walsh. It is enlightening to see how many differences 
of opinion there are. We have our differences with OMB, too.
    Mr. Allbaugh. I understand that.
    Mr. Walsh. On this transfer to HUD, Secretary Martinez made 
it very clear last year when he came before us that he wanted 
to get to the core mission of HUD, which is housing. So he was 
asking that we not fund the drug elimination grants and things 
that were not part of the core mission, i.e., housing, things 
like crime and punishment and those sorts of things.
    Really, I don't see this as anything wrong. I don't see 
this as part, as he defined it, their core mission, feeding 
programs.
    Mr. Allbaugh. I don't know how to respond to that, other 
than reading in their mission statement, it seems to fit well 
with what their overall plan is.
    Mr. Walsh. You are satisfied that they can run this program 
as well as you have?
    Mr. Allbaugh. Yes, I am satisfied. I am. And we will abide 
by whatever you want to do.
    Mr. Walsh. Okay. This has had good support in the past from 
the subcommittee, and we have been very pleased with the result 
that FEMA is on the spot, delivering services.
    Mr. Allbaugh. I can't argue with any of that, sir. Yes, we 
are on the spot, or else people get fired. So that is the name 
of the game.
    Mr. Walsh. Thank you.
    Congressman Hobson has joined us. He has a couple of 
questions.

                 PRE-DISASTER MITIGATION GRANT PROGRAM

    Mr. Hobson. Thank you. I am sorry I am late. We have got 
three or four hearings going on today. I have got the Navy 
across the hall.
    But FEMA is very important to me, and I think some of the 
things I am going to say have been asked and in similar 
questions, I am glad to see the pre-disaster mitigation grant 
program as a new request, but I just want to mark Ohio down as 
one on the list of states who support funding a careful balance 
between pre-and post-disaster mitigation money.
    Mr. Allbaugh. I am for that too.
    Mr. Hobson. I think we save money in the long run.
    Mr. Allbaugh. Yes, sir, we do. I think it is important to 
start a pre-disaster mitigation program that is very 
aggressive, and that is why we ask for $300 million in this 
first year.
    Mr. Hobson. Every year that I have been on the committee, I 
have asked FEMA to respond to my concerns about insufficient 
funding for state and local emergency management activities or 
our First Responders. I am glad to see the Administration is 
listening. You have got a $3.5 billion increase.
    I am concerned, however, about the capacity of state and 
local responders to handle such an influx of funding given 
their limited infrastructure. How will FEMA ensure that the 
funding is spent evenly and where it is needed the most? Have 
you thought about dedicating some of this increase to the 
emergency management planning grants which states and locals 
can use for infrastructure building?
    I know that several counties in my district are trying to 
scrape together funds to update their emergency operation 
centers. A smart place to ask for such funding might also be in 
the supplement request, and have you considered requesting up-
front dollars for our local people as a kick start in this 
area?
    Mr. Allbaugh. We will design for the states and with the 
states the program for distributing this money. I do not think 
that any of the First Responder money, the $3.5 billion should 
be used to enhance their EMPG money. I think that is a separate 
issue. I am interested in exploring EMPG. It has been at level 
funding from FEMA for a number of years. They are probably due 
an increase. What that is, I don't know, and we need to have a 
dialog about that.
    Mr. Hobson. We have got a really I think great person in 
Ohio. Mr. Dale Shipley has worked for a number of 
administrations, both Democratic and Republican, and I think he 
has got a good sense of judgment. And you know we have had 
tornados in Xenia, Ohio. You guys have done a great job in 
responding to disasters I think Xenia is a good example of 
where post-mitigation-type of things from before help this time 
and we will do even better. I hope Xenia doesn't have another 
tornado in the future, but if we do, we will be even better 
prepared.
    The last comment I really wanted to make was as we get into 
this war or terrorism, you all are going to play a significant 
role. Some of the same agencies and people are going be working 
in the states together. In Ohio, for example, the Governor 
appointed an Air National Guard General who is basically a 
civil engineer to be his liaison, and then we have Dale over in 
EMA, both of whom bring pretty good backgrounds in structure. I 
think this is important as we move forward, that FEMA work with 
the states and the states work with FEMA and the other agencies 
so we don't keep tripping over each other and duplicating types 
of facilities that are out there or types of programs. FEMA is 
going to be very important in whatever we do in this.

                     URBAN SEARCH AND RESCUE TEAMS

    And these urban search and rescue teams, I can't tell you 
how great they were. The Ohio Team was in New York. That is 
another area where we all need to work together. And that is a 
rambling dissertation on that subject, but I hope when you are 
doing your planning and that you are working with these people 
to create similar types of synergies between you all.
    Mr. Allbaugh. We have a great relationship with all the 
states. We all want to further enhance that relationship, and 
your thought is exactly why there is a push to move ODP to 
FEMA, so we do not offer confusing and competing programs for 
all their First Responder training, they can come to one place, 
a place that they have a relationship, and ongoing 
relationship, and that would be FEMA. And we want that role. 
That is what we do, protect lives, save lives, and protect 
property.
    Mr. Hobson. I have got to tell you, I had a lot of 
confidence in the previous FEMA director. I thought he did a 
good job. I think you are doing a good job, and this is an area 
that when you have a disaster in your community, people don't 
care what political party people are. They don't care what kind 
of uniforms they have got on, what color they are, or anything. 
All they care about is if they get help and what is meaningful 
to them at the moment. And I think FEMA has come a long way 
from where it was when I first came to Congress, and it has 
gotten better and better and better.
    I want to congratulate you for carrying on that tradition 
at a very difficult time. I was in New York, and FEMA did a 
good job in New York, and this is big transition from when I 
first came to Congress 12 years ago to now. FEMA has come a 
long way, and I think all the people who have struggled and 
worked in FEMA should somehow get a big congratulations or a 
big hug from everybody, because it has not been easy, but it 
has come a long way, and I want to thank you for continuing 
that tradition.
    Thank you very much.
    Mr. Allbaugh. Thank you for your comments, Congressman.
    Mr. Walsh. I would like to associate myself with remarks of 
my friend from Ohio. That was very well said.
    Mr. Mollohan. I would like to associate myself with those 
comments too, Mr. Chairman. Mr. Hobson articulated those 
sentiments very well.
    Mr. Hobson. I just got back from Uzbekistan and 
Afghanistan, and so I probably have got jet lag right now. And 
they have real FEMA problems. There is no infrastructure in 
Afghanistan at all. It is one of the biggest problems I have 
ever seen. It is an unnatural disaster, because there is no 
community structure at all.
    Mr. Walsh. We will close the hearing. Before I do, Ijust 
want to submit these questions for the record. These are from my 
colleague from New York, Maurice Hinchey, who is also on the 
Appropriations Committee. He had some questions he wanted to ask. I 
will submit them. You can respond back to us and to him for the record.
    And we thank you for your time and attention and your 
answers and your service to your country.
    Mr. Allbaugh. Thank you.
    Mr. Walsh. The meeting is adjourned.

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                         Wednesday, March 20, 2002.

             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

                                WITNESS

LESLIE LENKOWSKY, CHIEF EXECUTIVE OFFICER
    Mr. Walsh. The subcommittee will come to order. Today we 
welcome the Corporation for National and Community Service. 
Testifying on behalf of the Corporation is Chief Executive 
Officer Les Lenkowsky. This is Mr. Lenkowsky's first appearance 
before the subcommittee, as last year at this time the 
Corporation was without a director. We welcome you and look 
forward to your testimony.
    Despite the best of intentions of this subcommittee, there 
are those that feel the funds allocated to the Corporation are 
better spent elsewhere in the bill, and floor amendments leave 
the Corporation out in the cold. I am sure you are aware of the 
precarious funding situation the Corporation faces in the 
House, and I am hoping that you are ready for the challenge.
    The Corporation is requesting $637 million for fiscal year 
2003, an increase of $299 million above the current year's 
funding level. Aside from an increase for contributions to the 
National Service Trust, a payment we did not have to make last 
year due to the award utilization, the Administration proposes 
expanding the number of volunteers by 50 percent in fiscal year 
2003. In addition, the budget request also includes $5 million 
for the Office of Inspector General, the same level as previous 
fiscal years.
    At this time I would like to recognize my colleague, Mr. 
Mollohan, for any opening remarks he might have.
    Mr. Mollohan. Mr. Chairman, I would just like to welcome 
the witness to the hearing today, and I look forward to his 
testimony. Thank you.
    Mr. Walsh. Mr. Lenkowsky, please make your opening 
statement. Your full testimony will appear in the record.
    Mr. Lenkowsky. Thank you very much, Mr. Chairman, Mr. 
Mollohan, and Congressman Price. I greatly appreciate having 
the opportunity to appear before you this morning. This is not 
only the first time I have testified before this committee, but 
it is in fact the first occasion I have had to testify before 
any committee of Congress since becoming CEO of the Corporation 
for National and Community Service last October.
    But, more importantly, this is an extraordinary moment in 
the history of our country and for the agency. Since the 
terrible events of September 11th, we have seen expressions of 
patriotism in the United States unlike any I can remember in my 
lifetime. At a tragically high price, all of us have again come 
to realize how precious our freedoms are and why it is 
important for all of us to accept the responsibilities of being 
citizens if we are to preserve them.
    To make this a lasting change in our civic consciousness, 
President Bush has called on all Americans to give at least two 
years of their lives to serving their country, and established 
the USA Freedom Corps as a White House council to mobilize the 
resources of the Federal Government to help them do so. Along 
with the Peace Corps and a new Citizen Corps which will focus 
on homeland security, the Corporation for National and 
Community Service is proud to be one of the operating arms of 
this historic initiative.
    Through our programs, AmeriCorps, Senior Service Corps, and 
Learn and Serve America, we will support the President's call 
to service by helping to create opportunities for all Americans 
to serve--full time, part time, while they are students, and 
when they are retired. We will also work closely with our 
Nation's many worthwhile charities and nonprofit organizations 
to assist them in recruiting and managing volunteers as well as 
accomplishing their missions, including providing security for 
our homeland.
    The budget request before you aims to provide the resources 
necessary for the Corporation to do this. Later on, we will be 
proposing principles for a Citizen Service Act of 2002, that 
will, we hope, reauthorize the Corporation for the first time 
since it was created in 1993. For the Corporation to play the 
role the President wants us to in the USA Freedom Corps, we 
need to make AmeriCorps, Senior Service Corps, and Learn and 
Serve America more responsive to State and local needs, more 
accountable for results, more sustainable with private 
resources, and more effective in assisting hard-pressed 
charities, especially faith-based and community-based 
organizations.
    We expect the President to submit the principles for this 
legislation to our authorizing committees next week. We will 
brief your staffs fully on them, and be glad to discuss them in 
detail with you at your convenience.
    While the efforts of the Corporation will be strengthened 
if Congress enacts legislation embodying these principles, I 
can assure you that we can still support the goals of USA 
Freedom Corps under our current authorization. As you noted, 
our request to this subcommittee totals $637.7 million, an 
increase of $229.4 million over the amount appropriated for 
2002.
    We are mindful that this is a difficult year for the 
Federal budget. The requirements of the war on terrorism and 
homeland security, as well as the lingering effects of the 
economic recession, have created sizeable demands for 
additional spending and necessitate tough choices. However, 
President Bush feels strongly that our Nation has a window of 
opportunity that occurs only once or twice a century.
    Through the USA Freedom Corps, we have a chance to help 
bring forth a new great generation whose contributions to 
addressing our most serious problems and keeping our democracy 
strong will be felt far into the 21st century. By investing a 
small amount, less than one-half of 1 percent of the funds 
requested from this committee, in the work of the Corporation 
for National and Community Service, you will be giving a large 
assist to the many Americans who are asking what they can do to 
help, while contributing to the rebirth of citizenship, 
service, and responsibility that we have needed for so many 
years.
    We have submitted a written statement for the record, and I 
would now be pleased to take your questions.
    [The information follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                   JUSTIFICATION FOR THE CORPORATION

    Mr. Walsh. Thank you very much.
    Let me get right to the crux of this budget issue for us. 
Many Members of Congress have long questioned the need for 
AmeriCorps, and some have ridiculed the notion of paying 
volunteers. Some have labeled the Corporation as a Clinton pet 
project or program and a waste of money.
    This committee has not provided funding for the Corporation 
in the past, and we talked about this when we spoke on the 
phone, because annual floor amendments would close out the 
program and instead fund veterans' or housing initiatives. What 
would you say to those who still view the Corporation as a pet 
of the previous administration, and how would you defend the 
expansion of the Corporation other than as a presidential 
priority?
    Mr. Lenkowsky. There are a lot of misconceptions, I think, 
about what we are and what we do. The one I like--and as you 
know, Mr. Chairman, I used to be a professor of this subject 
before coming into the government--is that we are paying 
volunteers.
    Our people are volunteers in the same way a member of what 
we used to call the ``all-volunteer Army'' is a volunteer. It 
is a person who has stepped forward willingly to make a great 
commitment of time to serve something that is in the public 
interest. In the case of AmeriCorps members and our other 
programs, it is to work with our charities and other nonprofit 
organizations across a whole spectrum of needs, including 
housing and working with veterans who need help.
    We pay them a very small amount. Only about half of all 
AmeriCorps members get the full stipend--that enables them to 
have something to live on while they are serving 20 to 40 hours 
or more a week. We think it is a worthwhile investment in the 
national interest.
    The President, the Chairman of our board, Mayor Stephen 
Goldsmith of Indianapolis, and I, are looking to make a number 
of changes which will be embodied in our reform principles. 
These changes are designed to improve the programs in 
significant ways.
    This is a program that President Clinton proposed, but we 
in the Bush Administration feel we can make it a stronger, 
better, more effective program.

         ADMINISTRATION EARMARKS VERSUS CONGRESSIONAL EARMARKS

    Mr. Walsh. Thank you. The Office of Management and Budget 
has made a pretty big deal of congressional earmarks this year. 
They have talked about the need for us to respect their 
priorities, but they don't think that it makes a whole lot of 
sense for Members of Congress to prioritize spending in their 
own constituencies or in their own States. And yet within your 
budget request the President has earmarked $10 million for 
Points of Light, $2.5 million for an endowment program, and 
another $7.5 million for America's Promise.
    Why should we support these priorities when the 
Administration will not support ours?
    Mr. Lenkowsky. The Points of Light Foundation and America's 
Promise have a unique status. They are partners----
    Mr. Walsh. More unique than our priorities?
    Mr. Lenkowsky. Not necessarily, no.
    Mr. Walsh. Good. That is a good start. [Laughter.]
    Mr. Lenkowsky. We have had a long relationship with them. 
When we were working on the State of the Union message, I got a 
call afterwards from the head of the Points of Light 
Foundation, who wanted to know why he hadn't been informed in 
advance of what the President was going to say in the State of 
the Union. I had to remind him that, although we work closely 
together, he is really not part of the administration. The 
Points of Light Foundation is an independent organization.
    These are groups that do very important things. The Points 
of Light Foundation, for example, runs the volunteer centers, 
and I am sure there are several in all of your districts. 
Volunteer centers are ways by which private citizens can call 
up and find places where they can volunteer, so it is really a 
support organization for the work we are doing, and that 
justifies giving them a special status in our budget.
    America's Promise likewise focuses on mobilizing a whole 
host of community resources to help young people. They work 
with all the charities in communities, and are involved, like 
the Corporation, in building capacity of communities to solve 
important problems. So we feel it is justified to treat them 
somewhat differently from other organizations by earmarking 
funds in our budget.
    Mr. Walsh. So you folks think that this is a worthwhile 
expenditure of taxpayers' money, and you have suggested 
Congress allocate those funds?
    Mr. Lenkowsky. Yes, Mr. Chairman, and it also supports and 
works closely with, almost in partnership with what we do.
    Mr. Walsh. We have to decide how to fund this. In the past, 
this subcommittee has chosen not to put funding in and then 
resolve the issue in conference, primarily to protect 
AmeriCorps. Members of this subcommittee have supported the 
Corporation consistently.
    But what do you say to our colleagues and to the American 
public when they say that money can be far better spent 
providing health care for veterans, housing for the homeless, 
or supporting our scientific needs of the country? Because 
those are the trade-offs that we have to make.
    Mr. Lenkowsky. I would say that is what investment in 
AmeriCorps, our senior programs and our school-based Learn and 
Serve programs does. When you invest in AmeriCorps, you are 
investing in people who are helping veterans, who are dealing 
with health problems. They may not be doing scientific research 
but they are working on environmental issues that affect the 
average American.
    Our programs don't exist in a separate universe. They are 
part of our communities. As you know, our official name was 
always the ``Corporation for National and Community Service.'' 
My first act as CEO, was to make sure that was our public name. 
We had used the ``Corporation for National Service'' publicly. 
It is a little easier to say.
    But I wanted to bring community back into our public face, 
because we are part of America's communities. Whatever concerns 
Americans in their communities, whether it is meeting the needs 
of our veterans, health care or education--education, of 
course, is the foundation on which our scientific progress is 
developed--we will be a part of helping the public solve these 
problems at the local level and through our private nonprofit 
organizations.
    Mr. Walsh. At this time I will yield to Mr. Mollohan for 
questions.
    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Chairman, if I might follow up on your first question 
to the witness. I am not sure you answered the chairman's 
question in enough detail. You commenced to define those 
organizations, and I am sure he wanted you to talk about the 
definition, or he would have followed up--but part of his 
question was, why do the President's earmarks have a preferred 
status vis-a-vis congressional earmarks, qualitatively and also 
legally?
    Mr. Lenkowsky. Congressman Mollohan, it is not for me to 
address broad budget priorities and policy here. What I can say 
is that the two earmarks we are proposing for Points of Light 
Foundation and for America's Promise are organizations that are 
very close partners in what we do, and in some way are 
supporting organizations, even though they are nongovernmental.
    Mr. Mollohan. Again, and not to be at all argumentative 
about it, that really isn't the question. I mean, you can 
dispose of it the way you have but constitutional predicate, 
and as a matter of fact the responsibility we have, is to 
direct how spending is fashioned in the bill.
    Mr. Lenkowsky. I certainly respect that, and whatever this 
committee and others decide, we will abide by and exercise our 
normal standards of oversight.

                        CITIZEN CORPS INITIATIVE

    Mr. Mollohan. The Citizen Corps initiative is going to be 
administered under FEMA. What relationship are you going to 
have to this initiative?
    Mr. Lenkowsky. Citizen Corps is a separate organization 
completely.
    Within the corporation right now, about 30 percent of 
AmeriCorps and Senior Corps people participate in projects 
related to public safety, public health, or disaster 
preparedness.
    However, Citizen Corps, at the State and local levels, is 
designed specifically to develop community planning efforts. So 
if--and we certainly hope it doesn't happen--there is a threat 
of a terrorist attack in the future, our communities will be 
ready to respond. The members of AmeriCorps and Senior Corps, 
and also some Learn and Serve people, will be part of that 
community planning effort.
    So, for example, in a community--we visited Volusia County, 
Florida recently with the President, and saw a wonderful group 
of seniors who work in support of the local police. That asset 
will be factored into the community plan, so in the case of a 
disaster, they will be mobilized along with other responders. 
It will not change anything legally or change my authority at 
all in terms of our relationship to those programs, but at the 
community level those programs will be part of the overall 
plan.
    Mr. Mollohan. What kind of a disaster? Are you talking 
about a terrorist incident?
    Mr. Lenkowsky. Could be terrorist. It could be a flood. One 
thing I heard in Daytona--and coming from Indianapolis, I know 
something about cars--one of the things these folks do is, when 
there is a big wreck on one of those highways down there that 
involves multiple cars, apparently our seniors get called up, 
in the dead of night if necessary, to seal off the highway so 
that the police forces and the wreckers can get to an accident 
involving multiple cars and clear up the highway.

                              SENIOR CORPS

    Mr. Mollohan. Your Senior Corps?
    Mr. Lenkowsky. The Senior Corps, who have volunteered for 
this particular program.
    Mr. Mollohan. What is different about the Citizen Corps? I 
mean, although it is not under your direct----
    Mr. Lenkowsky. It is not under our direction. It is meant 
to give some rationality to how we get ready to respond to all 
sorts of disasters and attacks.
    Mr. Mollohan. Okay. Well, you are probably not the right 
person to explore this in depth, are you?
    Mr. Lenkowsky. I can only tell you what our part is. We are 
going to provide support, through our existing programs and 
some expansion of them, for the activities of Citizen Corps.
    Mr. Mollohan. Could you provide us a mission statement?
    Mr. Lenkowsky. I think you are better off addressing the 
director of FEMA on that. I think it is a complementary arm 
that will deal with homeland security issues.
    Mr. Walsh. Mr. Price?
    Mr. Price. Thank you, Mr. Chairman.
    Welcome.
    Mr. Lenkowsky. Thank you.

                           USA FREEDOM CORPS

    Mr. Price. Glad to have you here and to hear your 
testimony.
    I am very much encouraged, as I think a number of Members 
are, by the endorsement that the President has given to 
national service in the aftermath of the September 11th 
attacks, and the solidarity and community spirit that has swept 
across our Nation. I think the idea of embracing this program 
and expanding it in sensible ways is a very fitting response to 
the challenge that we are facing and the desire of citizens of 
all sorts to give something back, to be of service.
    I also think it is an important bipartisan gesture. As the 
chairman has said, the Peace Corps is a signature Kennedy 
issue. National Service is a signature Clinton issue. There 
have been times in this House when my Republican friends have 
been reluctant to support particularly the latter. And so for 
the President to not only embrace this program but to propose 
its expansion and to portray it as a centerpiece of our 
national response to the challenges that we face, I think is a 
very, very positive and constructive gesture, and I am hopeful 
that this subcommittee can be supportive of that and can find 
funding to make these plans a reality.
    I gather that the details of the USA Freedom Corps and the 
way it will work and the coordinating mechanisms and so forth 
will be forthcoming in the Citizen Service Act, which will be 
proposed on what timetable?
    Mr. Walsh. Mr. Lenkowsky, I would ask you to just hold that 
thought. We have got just over a minute to vote, so why don't 
we go up and vote, and then we will come right back. Let's take 
a brief recess.
    [Recess.]
    Mr. Walsh. The subcommittee will reconvene, and you were 
about to respond to Mr. Price's question.
    Mr. Lenkowsky. Yes. Freedom Corps. I like to say we are 
suffering from a ``corps identity crisis'' at the moment. We 
have a lot of corps out there, and there is a certain amount of 
confusion.
    USA Freedom Corps is a White House coordinating council. It 
was established by executive order. It doesn't affect our 
legislative authority or that of the Peace Corps or the 
components of Citizen Corps.
    Therefore, the principles that will be released, for the 
Citizen Service Act of 2002, pertain exclusively to the work of 
the Corporation for National and Community Service. As you 
know, Congressman, we have not been reauthorized since our 
founding in 1993, and the principles that will be coming forth 
for a Citizen Service Act are the principles upon which we will 
recommend reauthorization of the corporation.
    The major difference is that the Freedom Corps is a White 
House council. It is chaired by the President and will give us 
an opportunity, working at the highest level, to coordinate all 
sorts of important initiatives aimed at supporting the 
President's call to service.
    Mr. Price. But you are talking coordination rather than 
direct administration?
    Mr. Lenkowsky. That is correct, Congressman, through the 
Freedom Corps.
    Mr. Price. And the basic administrative structure of 
AmeriCorps would remain?
    Mr. Lenkowsky. Yes, sir.
    Mr. Price. And the proposal, in terms of your support 
level, you are talking about 25,000 additional AmeriCorps 
members----
    Mr. Lenkowsky. Yes, sir.
    Mr. Price [continuing]. As a result of this initiative, on 
top of the 50,000 that you are currently supporting?
    Mr. Lenkowsky. Yes, sir.

                        AMERICORPS PARTNERSHIPS

    Mr. Price. All right, and is the plan to continue the 
partnering that has become the hallmark of AmeriCorps, in terms 
of the work you do with Habitat for Humanity----
    Mr. Lenkowsky. Absolutely.
    Mr. Price [continuing]. And other groups and various 
community-based organizations?
    Mr. Lenkowsky. In fact, we expect to give greater emphasis 
to that partnership. We are going to look, as you will see when 
we send up the principles, toward directing more of the 
AmeriCorps members to what we call capacity building. It is the 
equivalent of teaching somebody how to fish rather than giving 
him fish.
    We don't want AmeriCorps members simply to do things that 
other volunteers might be able to do. Because AmeriCorps 
members are going to be there for a serious commitment of time, 
we want them to be able to work with the organizations to 
recruit other volunteers and do other things to strengthen 
their capacity. That is precisely the Habitat model. It is the 
model of many of our programs--and we would like to see that 
model become a defining quality throughout AmeriCorps.
    Mr. Price. Thank you.
    Thank you, Mr. Chairman.
    Mr. Walsh. Thank you, Mr. Price.
    Mr. Frelinghuysen?
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Dr. Lenkowsky, congratulations on your appointment.
    Mr. Lenkowsky. Thank you.

                      MANAGEMENT AND ORGANIZATION

    Mr. Frelinghuysen. I know when you took charge of the 
corporation, some might say it was in sort of a state of 
disarray. Can you sort of comment a little bit on what you have 
done to sort of turn the organization around?
    Mr. Lenkowsky. I will be glad to do so, but I want to do so 
modestly. I have been a board member of the corporation since 
it was started. As you know, the law requires a certain number 
of members from both parties to be on the board, and I have 
been privileged to serve since 1993. And I saw the disarray in 
the early years, and it was considerable. We grew too fast, too 
soon.
    But I am pleased to tell you that since the latter part of 
the 1990s, and with a lot of help and prodding from this 
committee and others in Congress, we have been making a lot of 
strides. For fiscal year 2000--we received our first clean 
audit from our outside auditor, KPMG. It cited one material 
weakness. We just received--and our Acting Inspector General, 
Terry Bathan, is here today and could tell you more about it--
our audit for the last fiscal year, and it is also a clean 
audit with no material weaknesses.
    And that is just one sign of the considerable progress we 
have been making. We have made large strides in various kinds 
of financial control measures. We are about to launch our grant 
accounting system this spring--Last year, our Chief Operating 
Officer, who deserves a lot of credit for these improvements, 
told you about our grant accounting system that was coming on 
line this spring, so we will have much greater ability to see 
where the money is going and what is happening to it.
    I have also just completed a reorganization of our research 
division. This is the part of the organization that asks the 
``What are we accomplishing?'' questions. It will report 
directly to me, and be closely integrated with our program 
development.
    So we have made a lot of progress. We intend to make more 
progress. Some of our principles pertain to simplifying and 
streamlining our programs to make administrative and 
programmatic effectiveness even more reachable.

                           USA FREEDOM CORPS

    Mr. Frelinghuysen. Excellent. Many of us hold town meetings 
when we go home on the weekend, and I think the President is 
right to have called for some personal sacrifices. Many people 
have said, how do they get involved with the USA Freedom Corps? 
What avenues are open? I guess there are a lot of things in the 
works in terms of nailing down the specifics, but could you say 
generally how one would get involved?
    Mr. Lenkowsky. Yes. There is a web site, 
usafreedomcorps.gov. There is an 877 number--1-877-USACORPS, C-
O-R-P-S, and there are recruitment efforts. Our applications 
for AmeriCorps have been up 50 percent since the President's 
State of the Union, so people can apply directly to us. And 
there will be an enormous outreach campaign as well for people 
to join.
    But I also want to emphasize, as the President has, that to 
participate in serving one's country, one does not have to join 
AmeriCorps, the Peace Corps, Citizen Corps. These are great 
organizations, but the President has called on all Americans to 
serve in whatever ways at whatever times in their lives they 
can.
    I wanted to share two items with you today. One is a brief 
description of USA Freedom Corps which I think will clarify a 
bit some of the confusion and the other is something that the 
President just released last week in Philadelphia. This is a 
record of service. It is a book in which there are some 
wonderfully inspiring quotations, in which we invite all 
Americans just to write down what they have done and why they 
have done it.
    Partly it is meant to be motivational, so that you could 
keep track, in the same way that those of us who go to the gym 
regularly keep track of our reps. But also it is meant to be a 
legacy in your family, so that a generation from now, in the 
next generation your sons, your grandchildren can see just how 
you served your country and be inspired, we hope, to do the 
same.
    So I would like to share this with you, too. It is 
available through the web site, and we were able to print up a 
limited number of copies. We are now talking about the 
possibility of getting some support to make those widely 
available to all Americans. And you are absolutely right, it is 
just amazing to me what a response we are getting here.

                           LIABILITY AND RISK

    Mr. Frelinghuysen. The response has, I think, 
beenexcellent. I know on the paid side that they had like 300,000 
people signed up to be sky marshals, so I know there was a lot of 
interest there.
    Mr. Lenkowsky. That is exactly right.
    Mr. Frelinghuysen. How many of those were selected, God 
only knows. [Laughter.]
    One of the issues is that I know a lot of RNs and MDs have 
sort of wanted to, shall we say, reenlist.
    Mr. Lenkowsky. Right.
    Mr. Frelinghuysen. There is the issue of liability.
    Mr. Lenkowsky. Yes.
    Mr. Frelinghuysen. And at this point I assume that these 
are the type of things that will be addressed and covered, in 
case people want to sign up.
    Mr. Lenkowsky. Yes, we are very sensitive to the whole 
issue of risk in this area, and we do want to address that. A 
lot of this, as you know, is really covered under State law. 
President Bush, when I discussed this with him, reminded me 
that as Governor of Texas he proposed and signed a liability 
law that he thought did a lot to help address these kinds of 
questions, and I hope we will be able to take a look at it. 
This is where the idea of a coordinating council can be very 
useful. We can call this to the attention of the Department of 
Justice or other agencies that may need to look at this.
    Mr. Frelinghuysen. Okay, thank you.
    Thank you, Mr. Chairman.
    Mr. Walsh. Thank you, Rodney.
    Mrs. Meek.
    Mrs. Meek. Thank you very much.
    Welcome, Dr. Lenkowsky. We are very pleased to have you.
    Mr. Lenkowsky. Good morning.
    Mrs. Meek. I think the President has really stepped up to 
the plate on this. We have had all of these programs all of 
these years, and now we are beginning to get some cohesiveness 
with them, and it is going to serve the people better.
    And I don't know how many Congress people realize this, but 
the people really look for these kinds of things more than they 
do raw policy expansions, really. These are things, people are 
really interested in this, and they really want to see what 
their government is doing for them, and I think this is a very 
good step.
    Mr. Lenkowsky. Thank you very much.
    Mrs. Meek. I am glad to see that your budget has been 
approved. I don't know exactly what you are going to do with 
it, but I am sure you are going to try to take hold in 
management of these various groups you have here.
    Mr. Lenkowsky. Yes.
    Mrs. Meek. I have been here during the time that the Corps 
had quite a few problems, and they took a lot of heat on the 
floor. And now that we are going to have a different management 
style and a different cohesiveness, I am sure it is going to 
mean a lot.
    I don't have any questions for you, except that my 
background is community service, and I am going to work very 
closely with you on the programs that you have in terms of this 
particular agenda.

                       HOMEOWNERSHIP PARTNERSHIPS

    Mr. Lenkowsky. Thank you very much. I had the pleasure of 
visiting one of our AmeriCorps projects in your district, the 
Little Haiti Housing Association----
    Mrs. Meek. Yes, that is right.
    Mr. Lenkowsky [continuing]. Which is a great example of 
cooperation because it involves our program, Fannie Mae, HUD, I 
believe, plus City of Miami folks.
    Mrs. Meek. Yes.
    Mr. Lenkowsky. And what they are doing is trying to help 
Haitians become first time homeowners.
    Mrs. Meek. Homeowners, yes.
    Mr. Lenkowsky. And they are doing it for just the right 
reasons. As we all know, we have better communities when people 
own their homes and are stable.
    Mrs. Meek. Right.
    Mr. Lenkowsky. What had also interested me was the role our 
AmeriCorps VISTAs played, because I was in the process of 
selling my house in Indianapolis and buying a place here, and I 
knew how complicated that was. Here you get folks who are 
pretty recent arrivals and our AmeriCorps members were helping 
them through this very complicated process.
    Those AmeriCorps members weren't much different from the 
people they were helping. They may have been a little bit 
higher up the socioeconomic ladder, but not a lot, and for them 
the experience of this was going to be very important for their 
own careers. In fact, I think some of them realized that they 
had opportunities here that they hadn't known about.

                         MINORITY PARTICIPATION

    Mrs. Meek. Yes. I think you are right. I also think that 
you have a tremendous opportunity to reach out to minorities, 
in that there hasn't been that much participation by 
minorities, as much as I would have liked to have seen. I do 
hope that you will capture that and do a better job than was 
done in the past.
    Mr. Lenkowsky. That is one of the reasons why we are going 
to emphasize reaching out to community groups, both secular and 
faith-based, many of which are in our minority communities, and 
they need the kind of help that we can provide--people power.
    Mrs. Meek. Yes. Thank you.
    Mr. Lenkowsky. Thank you.
    Mr. Walsh. Mr. Lenkowsky, thank you very much for your 
testimony this morning. There probably will be additional 
questions submitted for the record. We would appreciate a 
prompt response to those.
    Thank you for your thoughtful comments and answers, and I 
would like to associate myself with the remarks of Congressman 
Price of North Carolina. I think what he said, we tend to skip 
right to the chase here and get after the budgetary issues, but 
there is strong support for volunteerism. I was a Peace Corps 
volunteer. I was paid, so I guess by some I would not be 
considered a volunteer. I was paid $150 a month, which is not a 
lot of money.
    Mr. Mollohan. Way back then it was more.
    Mr. Walsh. Way back then? [Laughter.]
    But you needed some sustenance, and where these kids are 
working, they need to pay rent and buy groceries, and maybe 
even some microwave popcorn on occasion for a treat.
    So we appreciate what you are attempting to do. We are 
delighted with the President's commitment to volunteerism.Some 
people would marvel that he asked for two years, but half of that would 
be great.
    So, anyway, we have a dilemma as we always do with this 
budget. We will work our way through it, and we will come out 
at the end okay.
    Mr. Lenkowsky. I look forward to working with you on that, 
and I will be seeing the President this afternoon, and I will 
convey to him what you just said.
    Mr. Walsh. Thank you.
    [Recess.]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Allbaugh, J.M....................................................     1
Lenkowsky, Leslie................................................   543


                               I N D E X

                              ----------                              
                                                                   Page
Federal Emergency Management Agency..............................     1
Alternative Projects Cost-Share Reduction........................   103
Budget Justification.............................................   134
Center for Domestic Preparedness at Ft. McClellan................   125
Citizen Corps...............................................52, 56, 106
Community Designation Program....................................    97
Community Disaster Loan Program................................104, 132
Disaster Assistance..........................................80, 84, 86
Disaster Relief Fund.............................................   100
    Request for FY 2003..........................................   133
Disaster Resistant Universities.................................64, 112
Disaster Resistant University Pilot Program......................   117
District of Columbia/Federal Government Offices and Terrorism 
  Preparedness...................................................    37
Emergency Food and Shelter Program..........................49, 56, 127
Emergency Management Performance Grant Program...................   124
Emergency Management Planning Grants.............................   107
Erosion Risk and Insurance Premiums..............................    45
Erosion Risk Management..........................................   121
Estimate of Expenditures in New York City........................   128
Expenditure of Supplemental Funds................................19, 24
Expert ``Cost-Estimating'' Panel.................................   103
Federal Response Plan and FEMA's Role in Terrorism Response......    16
FEMA Coordination with State Officials...........................    34
FEMA Response in New York........................................    21
Financial Audit..................................................    47
Fire Grant Program...............................................45, 53
Fire Management Assistance.......................................   104
Firefighters Grant Program.................................90, 110, 125
First Responders Program.................................20, 26, 28, 50
First Responders Program Training Facilities.....................54, 95
Fiscal Year 2002 Supplemental Request............................    25
Flood Map Modernization..................................34, 37, 39, 46
Flood Mapping....................................................    79
Flood Plain Mapping..............................................    60
Hazard Mitigation Grant Program.............................31, 40, 123
Hazards-U.S. (HAZUS) Risk Assessment Initiative..................   126
Homeland Security Funding........................................25, 93
Individual Assistance Programs...................................   103
Intelligence Sharing with State and Local Governments............   126
Minority Emergency Preparedness Demonstration Program............    42
Minority Participation in Top Level Administrative Positions at 
  FEMA...........................................................    43
Mitigation.......................................................    76
Mitigation Interagency Task Force (Section 204)..................   101
Mitigation Planning..............................................   102
Multihazard Mapping Initiative...................................   101
Mutual Aid Agreements Between New York and New Jersey for EMS 
  Services.......................................................    28
National Domestic Preparedness Office............................    22
National Flood Insurance Program................37, 44, 85, 99, 14, 119
National Standards...............................................    29
New York Transit Authority and PATH System Rebuilding............    19
Non-profits and the Stafford Act.............................17, 25, 67
Nuclear Detection Devices at the Olympics........................   109
Obligation of Supplemental Funding...............................    25
Office of Domestic Preparedness: Transfer........................    62
Office of Homeland Security/Office of National Preparedness......    26
Office of National Preparedness......................21, 22, 24, 69, 95
Opening Statement................................................  3, 5
Pine Bluff.......................................................   110
Policy Flexibility...............................................   128
Pre-Disaster Mitigation Program....................31, 57, 97, 100, 107
Procurement and Small Business, Minority-Owned Business, and 
  Women-Owned Business Participation.............................47, 49
Public Assistance Policy Changes.................................   102
Public Assistance Programs (Section 406), Conditions on 
  Assistance to PNP Facilities...................................   102
Public Utilities and the Stafford Act............................    20
Questions for the Record.........................................    60
Repetitive Loss Cost-Share Reduction.............................   103
Section 404 Hazard Mitigation Funds for New York.................   130
State Administration of the Hazard Mitigation Grant Program......   102
State and Local Planning Requirements: Disaster Mitigation Act of 
  2000...........................................................   117
Taxation on Flood Insurance Policies.............................    39
Terrorism Preparedness and National Borders......................    36
Tropical Storm Allison...........................................    27
University Program...............................................    43
Urban Search and Rescue Teams................................30, 51, 58
Utilities........................................................   131
Valley Presbyterian Hospital.....................................    65
Weapons of Mass Destruction Trained Urban Search and Rescue Teams
  30, 51
World Trade Center Air Quality...................................    83
Corporation for National and Community Service...................   543
Administration Earmarks Versus Congressional Earmarks..........560, 572
Advertising......................................................   574
AmeriCorps Partnerships..........................................   564
Budget Justification.............................................   589
Citizen Corps Initiative.........................................   562
Education Trust Fund.............................................   583
Homeland Security................................................   570
Homeownership Partnerships.......................................   567
Justification for the Corporation................................   560
Liability and Risk...............................................   566
Management and Organization......................................   565
Management Systems...............................................   581
Minority Participation...........................................   568
New Initiatives..................................................   578
Opening Statement..............................................543, 546
Questions for the Record.........................................   570
Reauthorization..................................................   577
Senior Corps.....................................................   563
Seniors Program..................................................   575
USA Freedom Corps.........................................563, 566, 576

                                <greek-d>


</pre></body></html>
